APPENDIX

TABLE OF CONTENTS
Appendix A:
Appendix B:
Appendix C:
Appendix D:
Appendix E:

Court of appeals opinion,
October 28, 2020 ............................................ 1a
District court order,
May 5, 2020................................................... 11a
Court of appeals opinion,
July 19, 2019 ................................................. 26a
District court order,
March 22, 2019 ............................................. 41a
Court of appeals order,
January 14, 2021 .......................................... 86a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

No. 20-1544

Isacco Jacky Saada,
Petitioner-Appellee,
v.
Narkis Aliza Golan,
Respondent-Appellant.

Filed: October 28, 2020
Before: WALKER, Jr. and MENASHI, Circuit Judges *
SUMMARY ORDER
WATFORD, Circuit Judge.
Appeal from a judgment of the United States District
Court for the Eastern District of New York (Donnelly, J.).

*
Senior Circuit Judge Ralph K. Winter, originally a member of
the panel, is currently unavailable, and the appeal is being adjudicated by the two available members of the panel, who are in agreement. See 2d Cir. IOP E(b).

(1a)

2a
Upon due consideration, it is hereby ORDERED, ADJUDGED, and
DECREED that the judgment of the district court is
AFFIRMED.
Respondent-Appellant Narkis Aliza Golan appeals the
district court’s order granting the petition of PetitionerAppellee Isacco Jacky Saada for the return of their son,
B.A.S., to Italy pursuant to the Hague Convention on the
Civil Aspects of International Child Abduction. The district court granted Saada’s petition after determining that
there were adequate ameliorative measures that remedied any grave risk of harm to B.A.S. upon his return to
Italy. We assume the parties’ familiarity with the underlying facts, procedural history, and arguments on appeal.
This marks the second time this case comes before our
court. In Golan’s earlier appeal, we ruled that the district
court’s initial order failed to adequately remedy the grave
risk of harm to B.A.S. that the court found would result
from B.A.S.’s return to Italy. Saada v. Golan, 930 F.3d
533, 540 (2d Cir. 2019) (Saada II). We remanded the case
to allow the district court to determine if other ameliorative measures were available to remedy that risk of harm
and could be “either enforceable by the District Court or
... supported by other sufficient guarantees of performance.” Id. at 541. On remand, the district court sought
out such measures, found the measures to be satisfactory,
and granted Saada’s petition. Finding no clear error in the
district court’s factual determinations, and concluding
that those facts support its judgment, we affirm.
BACKGROUND
Isacco Saada and Narkis Golan wed in Milan in August
2015. They had a son, B.A.S., the next June and lived in

3a
Milan for the first two years of his life. In July 2018, Golan
traveled with B.A.S. to the United States for a wedding,
and they have remained in the United States since that
time. The district court determined that Italy was B.A.S.’s
country of habitual residence for the purposes of the
Hague Convention. Saada v. Golan, No. 18-CV-5292, 2019
WL 1317868, at *17 (E.D.N.Y. Mar. 22, 2019), aff'd in
part, vacated in part, remanded, 930 F.3d 533 (2d Cir.
2019) (Saada I). We affirmed that decision in Golan’s initial appeal. Saada II, 930 F.3d at 539.
Saada’s relationship with Golan was abusive almost
from its inception. The district court found that Saada
would yell, slap, hit, and push Golan. He would call her
names and pull her hair. He once threw a glass bottle at
her and also threatened to kill her. This abuse often occurred in B.A.S.’s presence. Saada admitted to many relevant accusations. Saada I, 2019 WL 1317868, at *5.
The district found, based on expert testimony, that
Saada’s abuse of Golan had and could continue to have severe effects on B.A.S.’s psychological health. Id. at *18.
The district court noted that Saada, at that point, had not
demonstrated an ability to change his behavior or to control his anger. Id. As a result, the district court concluded
that returning B.A.S. to Italy would subject him to a grave
risk of psychological harm, and therefore the Hague Convention did not require that the district court order
B.A.S.’s return. Id.
That conclusion, however, did not end the analysis.
Circuit precedent required the district court to determine
if there were any ameliorative measures, or “undertakings,” it could impose on Saada that would eliminate the
grave risk of harm to B.A.S. and allow the court to return
B.A.S. back to Italy. Id. (citing Blondin v. Dubois, 189

4a
F.3d 240, 248 (2d Cir. 1999) (Blondin I)). The court decided that it could mitigate the grave risk by ordering
Saada, inter alia, to pay Golan $30,000, to stay away from
her in Italy, and to visit B.A.S. only with Golan’s consent.
Id. at *19 & n.40.
On appeal, we vacated the district court’s decision regarding the adequacy of these ameliorative measures.
Saada II, 930 F.3d at 540. We ruled that to eliminate a
grave risk of harm, the ameliorative measures must be either enforceable by the district court or supported by
other sufficient guarantees of performance. Id. at 541. Because the district court could not enforce its instructions
regarding Saada’s distance from Golan and visits with
B.A.S. once the parties were in Italy—and there were no
other guarantees of performance—the district court’s order did not adequately ameliorate the grave risk of harm
to B.A.S. Id. at 540.
We remanded the case for the district court to determine if any other enforceable or sufficiently guaranteed
ameliorative measures were available. Id. at 541. Specifically, we invited the district court to consider whether
Italian courts could issue orders that prohibited Saada
from approaching Golan or visiting B.A.S. without her
consent. Id. at 541-42.
On remand, the district court communicated with Italian authorities to determine whether they could issue a
protective order requiring Saada to stay away from Golan
and to attend therapy. J. App’x 493-511. The district court
then instructed the parties to petition the Italian courts
for such an order. Id. at 512-14. The parties complied. Id.
at 517-40.
An Italian court entered an order requiring, inter alia,
that (1) Saada not approach Golan, her place of work or

5a
residence, or B.A.S.’s school; (2) B.A.S. be entrusted to
Italian social services and placed with Golan for residence;
(3) Saada visit B.A.S. only in a neutral space under observation by Italian social services; and (4) Italian social services evaluate Saada and initiate psychological counseling
for him. Id. at 564-66. This protective order will run for
one year from when Golan and B.A.S. arrive in Italy and
is renewable. Id. at 564.
In light of these developments, the district court
granted Saada’s petition to return B.A.S. to Italy. Saada
v. Golan, No. 118-CV-5292, 2020 WL 2128867, at *6
(E.D.N.Y. May 5, 2020) (Saada III). The district court
noted that Saada had complied with previous social service investigations in Italy and that he had he abided by
all conditions of his supervised visits with B.A.S. in the
United States. Id. at *4. Combined with the consequences
Saada would face for violating the Italian protective order, the district court concluded that these findings provided it with sufficient confidence that Saada would comply with that order. Id. Additionally, the district court indicated that the psychological counseling mandated by
the Italian court could reduce Saada’s abusive tendencies.
See id. The district court also ordered Saada to pay Golan
$150,000 to cover her and B.A.S.’s expenses upon their return to Italy. Id. at *5. Taken together, the district court
concluded, these measures ameliorated the “grave risk of
harm to B.A.S.” that could result from “exposure to violence between” Saada and Golan. Id. at *2. In making its
decision, the court also noted the absence of “evidence in
the record that [Saada] was abusive to B.A.S. or that
B.A.S. would be unsafe with [Saada].” Id. at *2 n.4.
Golan now appeals the district court’s decision to grant
Saada’s petition.

6a
STANDARD OF REVIEW
“We review the district court’s interpretation of the
[Hague] Convention de novo and its factual determinations for clear error.” Souratgar v. Lee, 720 F.3d 96, 103
(2d Cir. 2013). Clear error review is “significantly deferential,” and “[w]e must accept the trial court’s findings unless we have a definite and firm conviction that a mistake
has been committed.” Id. (internal quotation marks omitted). “The District Court’s application of the Convention
to the facts it has found, like the interpretation of the Convention, is subject to de novo review.” Blondin v. Dubois,
238 F.3d 153, 158 (2d Cir. 2001) (Blondin II). In this case,
then, we will employ a clear error standard to assess the
district court’s findings that Saada will comply with the
Italian court order and that the $150,000 payment to Golan will meet her and B.A.S.’s needs until a custody arrangement is concluded. We then determine de novo if,
given those conclusions, the protective measures adequately ameliorate the “grave risk of harm” to B.A.S. See
id.
DISCUSSION
The Hague Convention on the Civil Aspects of International Child Abduction, Oct. 25, 1980, T.I.A.S. No.
11670, reprinted in 51 Fed. Reg. 10,494 (Mar. 26, 1986), as
implemented by the International Child Abduction Remedies Act (“ICARA”), 22 U.S.C. §§ 9001-11, requires
courts to “promptly return[]” a child removed from his
country of habitual residence “unless one of the narrow
exceptions set forth in the Convention applies.” 22 U.S.C.
§ 9001(a)(4). Article 13(b) of the Convention provides an
exception for cases in which “there is a grave risk” that
repatriation “would expose the child to physical or psy-

7a
chological harm or otherwise place the child in an intolerable situation.” The ICARA places the burden on the respondent to prove, by clear and convincing evidence, that
this exception applies. 22 U.S.C. § 9003(e)(2)(A).
A district court that finds a grave risk of harm “must
examine the full range of options that might make possible the safe return of a child” before denying repatriation.
Blondin II, 238 F.3d at 163 n.11. This rule “honor[s] the
important treaty commitment to allow custodial determinations to be made—if at all possible—by the court of the
child’s home country.” Blondin I, 189 F.3d at 248. However, a district court may rely only on “ameliorative
measures that are either enforceable by [it] or ... supported by other sufficient guarantees of performance.”
Saada II, 930 F.3d at 541.
In this case, the district court found that “exposure to
violence” perpetuated by Saada against Golan posed a
“grave risk of harm to B.A.S.” Saada III, 2020 WL
2128867, at *2. 1 After taking steps to ensure that a protective order from the Italian courts would be in place upon
the return of B.A.S. to Italy, however, the district court
subsequently found that this Italian protective order coupled with a $150,000 payment from Saada to Golan ameliorated that risk. Id. at *2-6. These measures, if effective,
will ensure that Saada and Golan are not in the same

1
On appeal, Golan argues that the district court failed to account
for other grave risks of harm. These include risks that B.A.S. will be
retraumatized simply by returning to Italy and that Saada will directly abuse B.A.S. in Italy. Appellant’s Br. 41-45. Because Golan did
not establish additional risks by clear and convincing evidence, the
district court did not err in focusing on the risk of exposure to violence.

8a
place. 2 This separation, in turn, protects B.A.S. from any
trauma that would result from abuse that Saada might
perpetrate against Golan if they were together, and therefore ameliorates the grave risk of harm to B.A.S.
These measures are “either enforceable by the District Court or ... supported by other sufficient guarantees
of performance.” Saada II, 930 F.3d at 541. The district
court can enforce its order that Saada must make the
$150,000 payment before B.A.S. is repatriated. And the
existing Italian protective order and ongoing involvement
of the Italian courts with this case provides sufficient assurance that Saada will not approach Golan in Italy. See
id. at 541 n.33 (“In most cases, the international comity
norms underlying the Hague Convention require courts
in the United States to assume that an order by a foreign
court imposing protective measures will guarantee performance of those measures.”).
Golan argues that this case presents a circumstance in
which “even a foreign court order might not suffice,” id.,
because Saada will not comply with the Italian protective
order. Golan points to the district court’s findings in the
initial proceeding that Saada “has to date not demonstrated a capacity to change his behavior” and “could not
control his anger.” Saada I, 2019 WL 1317868, at *18. The

2
The $150,000 payment—which amounts to over 75 percent of what
Golan claimed her and B.A.S.’s expenses will be in Italy until an Italian court can enter a support order— ensures that B.A.S. will be able
to live with Golan during the pendency of the custody proceedings in
Italy and that Golan will not need to rely on Saada for support during
that time. Without this payment, there might be a risk that Golan
would need to interact with Saada regarding B.A.S.’s expenses, and
that interaction could have created the risk of abuse in B.A.S.’s presence.

9a
district court also commented then that Saada’s “reliability was ‘down the tube.’” Id.
On remand, however, the district court concluded that
Saada will likely comply with the Italian protective order.
The court observed that Saada has complied with previous
Italian social service investigations as well as the conditions of his supervised visits with B.A.S. in the United
States. Saada III, 2020 WL 2128867, at *4. The court also
noted that Saada knows he will face consequences in Italy,
in terms of both contempt of court and B.A.S.’s custody
and visitation determination, if he violates the Italian
court’s protective order. Id.
Given the record before us, we do not have a “definite
and firm conviction that a mistake has been committed”
by the district court. Souratgar, 720 F.3d at 103. Saada
has shown an ability to follow rules in related contexts and
knows the Italian court will police his activities and punish
him for violations. The district court, therefore, did not
clearly err in determining that Saada will likely comply
with the Italian protective order.
In light of this finding, the district court correctly concluded that there existed sufficiently guaranteed ameliorative measures that would remedy the grave risk of harm
to B.A.S. upon his return to Italy. It therefore properly
granted Saada’s petition. 3

Our court recently rejected an appeal that presented facts very
similar to this case. In Valles Rubio v. Veintimilla Castro, we concluded that a district court did not err in determining that “ameliorative measures such as litigation in Ecuadorian courts were sufficient
to protect” the child from the grave risk of harm presented by his
father’s “physical and psychological abuse.” 813 F. App’x 619, 621 (2d
Cir. 2020). In so holding, we highlighted the mother’s “record of ...
successful litigation in Ecuadorian courts” and measures set out in an
3

10a
We have considered Golan’s remaining arguments,
which are without merit. For the foregoing reasons, we
AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court
/s/ Catherine O’Hagan Wolfe

agreement between the parents that provided for “weekly visits between [the child] and [his mother’s] family [and] daily conversations
by video or telephone between” the mother and child. Id. “Although
we decided [Valles Rubio] by nonprecedential summary order, rather
than by opinion, our ‘[d]enying summary orders precedential effect
does not mean that the court considers itself free to rule differently
in similar cases.’” United States v. Payne, 591 F.3d 46, 58 (2d Cir.
2010) (quoting Order dated June 26, 2007, adopting 2d Cir. Local R.
32.1). Unlike the respondent in Valles Rubio, Golan is not a citizen of
the country of her child’s habitual residence nor does she speak the
local language well. Saada III, 2020 WL 2128867, at *5. In other respects, however, this case includes greater assurances of amelioration. Unlike the petitioner in Valles Rubio, Saada does not have a history of directly abusing B.A.S., id. at *2 n.4, and unlike the mother
there, Golan will be returning to Italy with B.A.S., id. at *2. Furthermore, the parties here already have a foreign protective order in place
while the parties in Valles Rubio did not.

11a
APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

No. 1:18-CV-5292 (AMD) (SMG)

ISACCO JACKY SAADA,
Petitioner,
– against –
NARKIS ALIZA GOLAN,
Respondent.

Filed: May 5, 2020

MEMORANDUM DECISION AND ORDER
DONNELLY, United States District Judge.
On September 20, 2018, the petitioner, Isacco Jacky
Saada, brought this case against the respondent, Narkis
Aliza Golan, pursuant to the Hague Convention on the
Civil Aspects of International Child Abduction, as implemented by the International Child Abduction Remedies
Act, 22 U.S.C. §§ 9001-9011. Mr. Saada, an Italian citizen,
alleged that in August of 2018, Ms. Golan, an American
citizen, wrongfully kept their minor son, B.A.S., in the
United States.

12a
In a March 22, 2019 decision, I found that B.A.S. was
a habitual resident of Italy, and that while he would be
subject to grave risk of harm upon repatriation, there
were sufficient measures that would ameliorate the risk.
(ECF No. 64 (Saada I) at 35.) The Second Circuit affirmed the decision in part and vacated it in part. Saada
v. Golan (Saada II), 930 F.3d 533, 537 (2d Cir. 2009). The
Court agreed that Italy is B.A.S.’s “habitual residence”
under the Hague Convention, but determined that certain
measures could not be enforced before B.A.S. was repatriated to Italy. Id. at 542-43. Accordingly, the Second Circuit remanded the case with instructions to ensure that
the measures necessary for B.A.S.’s safe repatriation
could be “enforce[d] by the District Court or supported by
other sufficient guarantees of performance.” Id. at 543.
Over the past nine months, I undertook an extensive
examination of the measures available to ensure B.A.S.’s
safe return to Italy. With the assistance of the United
States Department of State, I contacted the Honorable
Peter J. Messitte, Senior Judge of the United States District Court for the District of Maryland and the Representative of the United States Federal Judiciary for the
International Judicial Network under the Hague Convention. With Judge Messitte’s assistance, I corresponded
with the Italian Central Authority and the Italian Ministry of Justice on matters concerning B.A.S., the petitioner
and the respondent. (See, e.g., ECF Nos. 73, 74, 77, 78, 85,
87, 88.) The parties appeared for multiple conferences and
submitted status reports and briefs on the status of the
case in Italy and the sufficiency of various ameliorative
measures. (ECF Nos. 100, 103, 106.)
As I explained in my earlier decision, these determinations are difficult, and are certain to bring heartache to
one side. Nor am I unmindful of the inevitable upheaval

13a
that necessarily follows decisions of this kind. 1 Nevertheless, based on the record before me at the trial and upon
remand from the Second Circuit, I am confident that the
Italian courts are willing and able to resolve the parties’
multiple disputes, address the family’s history and ensure
B.A.S.’s safety and well-being. I find that B.A.S. must be
returned to Italy.
DISCUSSION 2
The Hague Convention seeks to protect children from
the harmful effects of wrongful removal, and establishes
procedures to ensure their prompt return to the state of
their habitual residence. See Abbott v. Abbott, 560 U.S. 1,
8 (2010) (explaining purpose of the Convention). The general rule is that a wrongfully retained child “must be returned” to his country of habitual residence. Souratgar v.
Lee, 720 F.3d 96, 102 (2d Cir. 2013) (citing Blondin v. Dubois (Blondin II), 189 F.3d 240, 245 (2d Cir. 1999)). The
rule is not absolute, though; a child will not be returned if
repatriation would cause “grave risk” of “physical or psychological harm” to the child, or “otherwise place [him] in
an intolerable situation.” Hague Convention, art. 13(b);
see also 22 U.S.C. § 9003(e)(2)(A) (exception must be
proven by “clear and convincing evidence”). In such a
case, the child should not be repatriated absent ameliorative measures that protect him from the “grave risk” of
harm. See Valles Rubio v. Veintimilla Castro, No. 19-CV2524, 2019 WL 5189011, at *23 (E.D.N.Y. Oct. 15, 2019)

“The ordinary disruptions necessarily accompanying a move [do]
not by themselves constitute a” grave risk of harm. Blondin v. Dubois
(Blondin IV), 238 F.3d 153, 164 (2d Cir. 2001).
1

2

Familiarity with the facts is assumed.

14a
(“[A] grave risk finding would . . . be fatal to a petition”
absent sufficient ameliorative measures.).
A thorough consideration of all potential ameliorative
measures safeguards not only the child, but “the important treaty commitment” articulated in the Hague
Convention “to allow custodial determinations to be
made—if at all possible—by the court of the child’s home
country.” Blondin II, 189 F.3d at 248. “[T]he whole structure of the Convention depend[s] on the institutions of the
abducted-to state generally deferring to the forum of the
child’s home state.” Id. (citation and internal quotation
marks omitted).
I. AMELIORATIVE MEASURES
To ensure a child’s safe repatriation, the ameliorative
measures must “reduce whatever risk might otherwise be
associated with the child’s” return. Id. at 248. The court
should “examine the full range of options,” Blondin IV,
238 F.3d at 163 n.11, including measures undertaken “by
the authorities of the state having jurisdiction over the
question of custody[,]” and measures undertaken “by the
parents[.]” Blondin II, 189 F.3d at 248. The analysis includes, for example, the capability and willingness of the
court in the country of habitual residence “to give the
child adequate protection,” Souratgar, 720 F.3d at 103
(citing Blondin IV, 238 F.3d at 162), as well as measures
undertaken before the child’s repatriation, Saada II, 930
F.3d at 542. The measures must be “enforceable by the
[d]istrict [c]ourt or supported by other sufficient guarantees of performance.” Id. at 543.
It is not clear in this Circuit whether it is the petitioner’s or respondent’s burden to establish the “appropriateness and efficacy of any proposed undertakings.”

15a
Valles Rubio, 2019 WL 41890111, at *23 (citations omitted). While “[l]ogically . . . the burden would appear to fall
on the petitioner” to rebut a finding of grave risk of harm, 3
the Second Circuit has previously “impl[ied]” that the
burden is part of the respondent’s grave risk claim—that
is, “to prove grave risk, the respondent must also prove”
the absence of adequate ameliorative measures. Id. (characterizing language in Blondin IV). In any event, the focus is on measures that “make possible the safe return of
[the] child to the home country.” Blondin IV, 238 F.3d at
153 n.11.
II. APPLICATION
The grave risk of harm to B.A.S. is exposure to violence between the petitioner and the respondent. The record is clear that “Mr. Saada was violent—physically, psychologically, emotionally, and verbally—to Ms. Golan,”
and “that B.A.S. was present for much of it.” (ECF No. 64
at 32.) While B.A.S. was not the target of abuse himself,
“a child who is exposed to domestic violence . . . could face
a grave risk of harm.” (Id.) That risk is greatly reduced
when the parties are not together.
The respondent has made it clear that she intends to
return to Italy with B.A.S. if the Court orders his repatriation. Because the respondent is B.A.S.’s primary caretaker, her safety is a factor in the Court’s decision. See,
e.g., In re Krishna v. Krishna, No. C 97-0021, 1997 WL
195439, at *3-4 (N.D. Cal. Apr. 11, 1997) (courts may deny
3
The First Circuit and Sixth Circuit explicitly assign the burden to
the petitioner. See Simcox v. Simcox, 511 F.3d 594, 611 (6th Cir. 2007)
(“[T]he petitioner proffering the undertakings bears the burden of
proof.”) and Danaipour v. McLarey, 286 F.3d 1, 21 (1st Cir. 2002)
(“[T]he proponent of the undertaking bore the burden of showing” its
adequacy.).

16a
petition where the respondent would be forced to rely on
abusive spouse in new country). However, it is B.A.S.’s
safety and well- being that is paramount—not the respondent’s. See Davies v. Davies, 717 F. App’x 43, 48 (2d
Cir. 2017) (The grave risk “inquiry is not whether repatriation would place the respondent parent’s safety at
grave risk, but whether so doing would subject the child
to a grave risk of physical or psychological harm.”). 4 “[A]
respondent should not be rewarded for declining to ameliorate the risk” to her child, Valles Rubio, 2019 WL
5189011, at *31, and harm that is “a consequence of
choices made by [the] respondent” should not affect the
Court’s repatriation decision. In re Koc, 181 F. Supp. 2d
136, 156 (E.D.N.Y. 2001), report and recommendation
adopted (Apr. 3, 2001).
The respondent maintains “that no set of ameliorative
measures is appropriate” because the petitioner is “unwilling” and “unable” to comply with court orders. (ECF
No. 103 at 4.) The petitioner disagrees, and says that in
any case, the proposed measures do not require the Court
“to rely on any promises” by him. (ECF No. 100 at 8.) For
the reasons that follow, I find that the proposed measures
are sufficient to ameliorate the grave risk of harm to
B.A.S. upon his return to Italy.

4
There is no evidence in the record that the petitioner was abusive
to B.A.S. or that B.A.S. would be unsafe with the petitioner. In fact,
the respondent frequently left B.A.S. with the petitioner when she
lived in Italy. (See Tr. 536:18, 618:7-15, 1036:21-1037-19, 1042:13-18.)
Accordingly, B.A.S.’s return to Italy is not necessarily contingent on
the respondent also living there.

17a
A. Undertakings by the Italian Courts
The Italian courts are willing and able to enforce the
conditions necessary to protect B.A.S. in Italy. It is undisputed that both parties have obtained legal counsel and
are active litigants in an ongoing custody dispute in Italy. 5
On December 12, 2019, the Italian court overseeing the
custody dispute issued a comprehensive order imposing
various measures to facilitate B.A.S.’s Italian repatriation. (ECF No. 96-1.) The order included, among other directives, a protective order against the petitioner and an
order directing Italian social services to oversee his parenting classes and behavioral and psychoeducational therapy. (Id. at 11-13.) The order also noted the extensive case
documentation in this Court’s proceedings, as well as the
Court’s finding that the petitioner was physically and psychologically violent toward the respondent, sometimes in
the presence of B.A.S. (Id. at 7-8.) Separately, on January
31, 2020, an Italian criminal court dismissed charges that
the petitioner initiated against the respondent in connection with B.A.S.’s removal from Italy. (ECF No. 99-1.)
The petitioner also signed a statement agreeing not to
pursue future criminal or civil actions against the respondent and submitted it to the Italian court. (ECF No.
94-1 at 31.) In short, the Italian justice system is actively
involved with the parties and their disputes, including
most significantly, B.A.S.’s welfare.
The respondent challenges the scope of the Italian order of protection, and argues that it should extend to the
petitioner’s parents. (ECF No. 103 at 19.) Next, she takes
5
Indeed, the respondent apparently secured counsel as early as
August 2018 (ECF No. 102-2 at 35); at the time of the trial, that lawyer was representing the respondent pro bono, which is apparently
still the case.

18a
issue with the details of the Italian court’s order that the
petitioner undergo therapy; she says that the order must
specify the duration and frequency of the petitioner’s
treatment (id. at 20), and that in any event, the petitioner
cannot be trusted to follow any court order. (Id. at 12.) Finally, the respondent challenges the adequacy of the Italian courts generally, suggesting that the judges do not appreciate the significance of the proceedings in this court
and are somehow incapable of “expeditiously translating
key materials” from this proceeding. 6 (Id. at 24.) None of
these arguments are persuasive.
There is insufficient evidence on the record before me
to require an order of protection against the petitioner’s
parents before B.A.S. can be returned safely to Italy. 7
While there is evidence that the petitioner’s parents took
his side against the respondent, including when he was
physically and verbally abusive to her (see, e.g., Tr. 80:120), there is no evidence that their behavior constitutes a
The respondent says that the Italian court must have the entire
record of this Court’s proceedings translated to Italian before B.A.S.
can be returned to Italy. (ECF No. 103 at 23-24.) This is unnecessary;
the Italian court already has multiple documents in Italian, has
acknowledged the comprehensive proceedings before this Court, and
has recognized the findings of violence. The Italian court is more than
capable of deciding which parts of the record should be translated.
6

7
When the respondent cited her in-laws’ animosity as a basis for
requiring an order of protection against them, I made the following
observation in a footnote of a previous order: “To the extent that the
respondent believes that an order of protection against the petitioner’s family is necessary, the petitioner should submit that request
to the Italian court for adjudication.” (ECF No. 89.) The respondent
seems to have interpreted this as an expression of my agreement that
such an order is a condition precedent to B.A.S.’s repatriation. (ECF
No. 95 at 1-2.) It is not. The scope of any orders of protection beyond
what is necessary for B.A.S.’s safe return is best left to the court overseeing the custody dispute and enforcing the order of protection.

19a
grave risk to B.A.S., or that they were violent or abusive
to B.A.S. See Blondin II, 189 F.3d at 246 (“As the federal
statute implementing the Convention makes clear, these
four exceptions are meant to be ‘narrow.’”). I am also not
persuaded by the respondent’s claims that the petitioner’s
father poses a danger to B.A.S. There was no mention at
trial of two of the accusations—that he “threw B.A.S. into
a swimming pool without flotation devices,” and “kicked a
soccer ball hard at [him].” (ECF No. 45 at 18.) In any case,
even if true, neither constitutes a grave risk of harm. 8
“Sporadic or isolated incidents of physical discipline directed at the child, or some limited incidents aimed at persons other than the child, even if witnessed by the child,
have not been found to constitute a grave risk.”
Souratgar, 720 F.3d at 104 (collecting cases). The respondent also testified that the grandfather took B.A.S.
from the petitioner and respondent’s first floor apartment
to the grandparents’ third floor apartment one time, while
the respondent and petitioner were out for the evening
and the child was with a babysitter. (Tr. 268:2-269:1.) This
incident does not warrant a finding that B.A.S.’s grandparents pose a grave risk of harm to him.
The grave risk of danger to B.A.S. is his exposure to
domestic violence, almost all of it perpetuated by the petitioner against the respondent. The order of protection
put in place by the Italian court prohibits the petitioner
from going near the respondent or B.A.S. 9 (ECF No. 96-1
The respondent’s claim that she did not include these incidents in
her trial testimony because “[t]he parties had limited time on the
Court’s calendar” (ECF No. 103 at 20 n.10) is perplexing. I heard testimony from multiple witnesses over the course of nine days, including the respondent, who testified for two days.
8

9
The order of protection lasts one year beginning when the respondent and B.A.S. return to Italy, and can be renewed. (Id.)

20a
at 11.) This is sufficient to ameliorate the grave risk of
harm resulting from his parents’ violent relationship.
I also reject the respondent’s claims about the efficacy
of the Italian court’s directives on the subject of the petitioner’s therapy. Although there was no evidence that the
petitioner was violent to B.A.S., I directed him to obtain
therapeutic treatment because of the expert testimony
about his lack of insight into his behavior and its effect on
B.A.S. In the months following my decision, the petitioner
provided evidence that he sought and obtained treatment.
Moreover, the Italian court has directed Italian Social
Services to investigate both parties and B.A.S. in order to
assess parental suitability and B.A.S.’s needs. (ECF No.
96-1 at 12 ¶ 4.) The Italian court has also directed that any
visitation be supervised. (Id. at 10.) Finally, the Italian
judge warned the petitioner that failure to comply with
Italian Social Services could be held against him in the
custody proceedings. (Id. at 13 ¶ 10.) This order provides
a sufficient guarantee that the petitioner will undergo appropriate treatment, and that B.A.S. will be safe in Italy.
The respondent also asserts that the petitioner will not
follow the orders of the Italian court because he is untrustworthy. The record before me does not support the
respondent’s claim. The petitioner cooperated with the
2017 Italian Social Services investigation that was
prompted by one of the respondent’s calls to the Italian
police. There is no evidence that he obstructed or refused
to participate in the investigation; rather, the record
shows that the petitioner participated in multiple interviews by himself and with the respondent. (Tr. 884:2-25.)
Moreover, since the start of proceedings in this Court, the
petitioner has traveled to the United States for the trial
and other hearings. He has abided by all conditions of the
supervised visits with B.A.S., despite the absence of any

21a
court order. Finally, of course, the petitioner will suffer
significant consequences if he disregards court orders.
The Italian court, like any court, expects litigants to comply with its directives and is fully capable of imposing
sanctions on litigants who flout its orders. If the petitioner
is foolish enough to disobey court orders, he will risk losing not only custody of B.A.S., but any rights of visitation
or access. (ECF No. 96-1 at 13 ¶ 10.) Given the severe consequences of noncompliance with the Italian court orders,
as well as the record before me, I am confident that the
Italian legal system is able to enforce its orders. 10
“[T]he exercise of comity that is at the heart of the
[Hague] Convention requires [the Court] to place [its]
trust in th[ose] court[s]” of Italy to do what is necessary
to protect B.A.S. Saada II, 930 F.3d at 539-40 (citing
Blondin II, 189 F.3d at 248-49). Based on the expert testimony presented at trial, I concluded that the Italian legal system is capable of handling domestic violence cases
involving children. (ECF No. 64 at 24.) My interactions
with the Italian courts over the past nine months have
confirmed that conclusion, as well as established specifically that the Italian court will protect B.A.S. The Italian
court has issued a comprehensive order that demonstrates an understanding and respect for this Court’s
findings, and has imposed measures consistent with
B.A.S.’s safe return.
B. Undertakings by the Parents
In addition to the conditions that the Italian court will
enforce, the Court has considered additional measures to
ameliorate the risk of harm to B.A.S. The respondent’s
10
The petitioner’s alleged refusal to grant the respondent a “get”—
a religious divorce—was not a subject of the trial, and in any event is
not a factor that affects B.A.S.’s well-being.

22a
well-being is a factor in my decision because B.A.S. will be
under her care pending resolution of the custody dispute
in Italy, see, e.g., Tsarbopoulos v. Tsarbopoulos, 176 F.
Supp. 2d 1045, 1061 (E.D. Wash. 2001) (declining to return
child where the respondent had “no resources which
would enable her to live in Greece”), but as explained
above, the respondent’s well-being is not the main focus of
this proceeding. The Court should focus on ameliorative
measures during the pendency of the child custody proceeding in the country of habitual residence. See Walsh v.
Walsh, 221 F.3d 204, 219 (1st Cir. 2000) (“The undertakings [should] preserve the child’s safety while the courts
of th[e home] country have the opportunity to determine
custody of the child[] within the physical boundaries of
their jurisdiction.”). “Typical undertakings concern support, housing and the child’s care pending resolution of
the custody contest.” Blondin IV, 238 F.3d at 159 n.8 (citation omitted).
The respondent asserts that she “has supported her
son without child support from [the petitioner] for the
past year and a half” (ECF No. 103 at 22 n.13), but that
she is vulnerable in Italy because she is not an Italian citizen, and because she lacks financial resources, which she
claims puts B.A.S. at risk. There are obvious and significant expenses associated with an international move, including housing, utilities, food, travel and child care. (See
ECF No. 102 at 3-5.) These expenses will be higher in the
first few months of B.A.S.’s return to Italy as the respondent settles him into a new routine, secures her own employment and manages their relocation. Based on the parties’ submissions (see, e.g., ECF No. 102), $150,000.00 will
ensure B.A.S.’s safe and comfortable return to Italy, as
well as the respondent’s financial independence from the

23a
petitioner and his family. 11 The petitioner must make this
payment before the respondent’s return to Italy to ensure
performance.
The money should alleviate the respondent’s asserted
concerns about her vulnerability as a non-citizen with limited Italian language skills (ECF No. 103 at 10), which are
in any event somewhat overblown. The respondent, with
the assistance of an attorney, has navigated the Italian legal system for the past two years. While she lived in Italy,
she ran errands, went out with friends, traveled independently, and regularly sought assistance from the Italian police and Social Services. (See Tr. 536:6-18, 618:7-15,
1036:21-1037:19, 1042:13-18, 884:2-25.) A payment of
$150,000.00 for a year of expenses will ensure the respondent’s interim stability pending the Italian custody
proceeding. 12
C. B.A.S.’s Special Needs
After the trial, a representative of the New York City
Department of Education and a psychologist that the respondent hired evaluated B.A.S., who is now three years
old, for special needs. (See ECF Nos. 68, 91.) The most
recent diagnosis was “mild Autism Spectrum Disorder”
and “clinically significant difficulties in executive functioning skills” with “average non-verbal cognitive capabilities.” (See, e.g., ECF No. 91 at 22.) According to the respondent, B.A.S. should receive treatment in the United
11
The respondent also can use this money to pay her lawyer to the
extent she is not getting free representation.

Moreover, the tools for obtaining legal status and a work permit
are in the respondent’s hands. At the Court’s direction, the respondent has already contacted the Italian Embassy in the United States
about her move to Italy. (ECF No. 95 at 3.)
12

24a
States because Italy cannot provide him with sufficient
services. (ECF No. 103 at 26.)
A grave risk of harm exists when repatriation would
cause the child “real risk of being hurt, physically or psychologically.” Blondin IV, 238 F.3d at 162. The risk of
harm “must be severe,” and there must be a “probability
that the harm will materialize.” Souratgar, 720 F.3d at
103. A “grave risk” of harm does not exist when repatriation “might cause inconvenience or hardship, eliminate
certain educational or economic opportunities, or not comport with the child’s preferences.” Blondin IV, 238 F.3d
at 162. It is the respondent’s burden to show grave risk of
harm by clear and convincing evidence. Id. at 157.
There is insufficient evidence that repatriation would
cause B.A.S. grave psychological harm in light of the recent diagnoses. Based on the evidence provided by the respondent, B.A.S.’s conditions are mild, and while he has
made “noticeabl[e]” progress receiving care in the United
States, his continued participation in programs here is
“strongly recommended” only to “maximize” his improvements. (ECF No. 103 at 25; see also ECF No. 91 at 22.)
There is no evidence that repatriation would result in “significant regression” or marked “deterioration in [his] cognition, social skills, and self-care.” See Ermini v. Vittori,
758 F.3d 153, 159-60 (2d Cir. 2014) (affirming grave risk
of harm finding for child with severe autism whose “hope
for an independent and productive life rested on his continued participation” in a specific treatment program) (internal quotation marks omitted). Moreover, the petitioner
agrees that B.A.S. should be evaluated in Italy and that
he will cover any costs associated with his treatment.
(ECF No. 100 at 9-10.)
The Italian court overseeing the custody dispute has
already directed Italian Social Services to evaluate B.A.S.

25a
to determine the extent of his psychological or educational
needs. (ECF No. 96-1 at 9.) Absent evidence that B.A.S.’s
repatriation would cause him grave risk of harm, the court
in his country of habitual residence is best suited to decide
the scope of his future treatment. The respondent has not
shown by clear and convincing evidence that B.A.S.’s special needs put him at grave risk of harm in Italy.
CONCLUSION
Accordingly, the petition is granted and B.A.S. must
be returned to Italy. The Clerk of Court is respectfully
directed to enter judgment in favor of the petitioner. The
parties are to meet and confer regarding B.A.S.’s return
to Italy and the ameliorative measures outlined in this order, including the petitioner’s payment to the respondent.
This order is stayed for thirty days to allow the parties
time to resolve the method of B.A.S.’s return, and for the
respondent to seek and obtain a decision on an expedited
appeal.
SO ORDERED.
s/Ann M. Donnelly
Ann M. Donnelly
United States District Judge
Dated: Brooklyn, New York May 5, 2020

26a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

AUGUST TERM 2018
No. 19‐820‐cv

ISACCO JACKY SAADA,
Petitioner-Appellee,
v.
NARKIS ALIZA GOLAN,
Respondent-Appellant.

On Appeal from the United States District Court for the
Eastern District of New York

ARGUED: JUNE 18, 2019
DECIDED: JULY 19, 2019
Before: WINTER, CABRANES, and RAGGI, Circuit
Judges.

CABRANES, Circuit Judge:

27a
Under the Hague Convention on the Civil Aspects of
International Child Abduction (the “Hague Convention”), 1 as implemented by the International Child Abduction Remedies Act, 2 “a child abducted in violation of rights
of custody must be returned to the child’s country of habitual residence, unless certain exceptions apply.”3 In this
appeal, we address the scope of a district court’s discretion to direct that a child be returned where “there is a
grave risk of harm that his or her return would expose the
child to physical or psychological harm or otherwise place
the child in an intolerable situation.”4
Respondent‐Appellant Narkis Aliza Golan (“Ms. Golan”) appeals from a final order of the United States District Court for the Eastern District of New York (Ann M.
Donnelly, Judge) granting Petitioner‐Appellee Isacco
Jacky Saada’s (“Mr. Saada”) petition under the Hague
Convention for the return of the parties’ minor child,
B.A.S., to Italy. On appeal, Ms. Golan challenges the District Court’s conclusion that Italy is B.A.S.’s habitual residence, and its decision to grant the petition subject to certain conditions notwithstanding its determination that repatriating B.A.S. would expose him to a grave risk of
harm.
We agree with the District Court’s habitual‐residence
determination. But we conclude that the District Court
erred in granting Mr. Saada’s petition because the most
The Hague Convention on the Civil Aspects of International Child
Abduction, Oct. 25, 1980, T.I.A.S. No. 11670, 1343 U.N.T.S. 89
(“Hague Convention”).
1

2

22 U.S.C. § 9001 et seq.

Abbott v. Abbott, 560 U.S. 1, 5, 130 S.Ct. 1983, 176 L.Ed.2d 789
(2010) (internal quotation marks omitted).
3

4

Hague Convention, art. 13(b).

28a
important protective measures it imposed are unenforceable and not otherwise accompanied by sufficient guarantees of performance. Accordingly, the District Court’s
March 22, 2019 order is AFFIRMED IN PART and VACATED IN PART, and the cause is REMANDED for
further proceedings concerning the availability of alternative ameliorative measures.
I. BACKGROUND
We draw the facts, which are undisputed for the purposes of this appeal, from the District Court’s thorough
recitation. 5
A. The Parties’ Relationship
On June 13, 2014, Ms. Golan, a United States citizen
then living in New York, and Mr. Saada, an Italian citizen
and resident, met at a wedding in Milan, Italy. Approximately two months later, Ms. Golan relocated to Milan
and moved in with Mr. Saada. The parties were married
on August 18, 2015, and Ms. Golan became pregnant
shortly thereafter. The couple’s first and only child,
B.A.S., was born in Milan in June 2016.
Mr. Saada and Ms. Golan’s “relationship was violent
and contentious almost from the beginning.”6 The couple
“fought frequently,” and “Mr. Saada physically, psychologically, emotionally and verbally abused Ms. Golan.” 7
Among other things, Mr. Saada yelled at Ms. Golan, called
her names, slapped her, pushed her, pulled her hair,

5
See Saada v. Golan, No. 18‐CV‐5292(AMD)(LB), 2019 WL
1317868 (E.D.N.Y. Mar. 22, 2019).
6

Id. at *5.

7

Id. at *4.

29a
threw a glass bottle in her direction, and, during a conversation with Ms. Golan’s brother, threatened to kill her.
These incidents, many of which occurred in the presence
of B.A.S., “were not sporadic or isolated . . . but happened
repeatedly throughout the course of the parties’ relationship.”8
Despite the significant problems in their relationship,
Mr. Saada and Ms. Golan continued living together in Milan after B.A.S. was born. They secured for B.A.S. an Italian passport, medical coverage, identification cards, and a
certificate of residence, and enrolled B.A.S. in a local daycare. With the exception of several trips abroad, B.A.S.
lived continuously in Milan for the first two years of his
life.
In July 2018, Ms. Golan traveled with B.A.S. to the
United States to attend her brother’s wedding. After the
wedding, Ms. Golan elected not to return to Italy and
moved with B.A.S. to a confidential domestic violence
shelter in New York.
B. Procedural History
In Fall 2018, Mr. Saada filed a criminal complaint
against Ms. Golan and initiated civil proceedings, including custody proceedings, in Italy. He also commenced this
action under the Hague Convention. In January 2019, the
District Court held a nine‐day bench trial at which seventeen lay and expert witnesses, including Mr. Saada and
Ms. Golan, testified.
On March 22, 2019, the District Court granted Mr.
Saada’s petition. After a careful review of the evidence,
the District Court first concluded that Italy is B.A.S.’s ha-

8

Id. at *18 (internal quotation marks omitted).

30a
bitual residence for the purposes of the Hague Convention. The District Court acknowledged that Ms. Golan had
repeatedly expressed an intent to return to the United
States, and that Mr. Saada was aware of this intent. In the
District Court’s view, however, the totality of the circumstances—and, in particular, Ms. Golan’s conduct—“established B.A.S. as a[n] habitual resident of Italy.” 9
Next, the District Court determined that Ms. Golan
had established that repatriating B.A.S. to Italy would expose him to a grave risk of harm. Specifically, the District
Court concluded that exposing B.A.S. to severe and continuing domestic violence of the type documented in this
action could have significant adverse effects on his psychological health and development. This conclusion was
based on both undisputed expert testimony and the facts
of this case, including the District Court’s findings that
“Mr. Saada has to date not demonstrated a capacity to
change his behavior,” has “minimized or tried to excuse
his violent conduct,” and “could not control his anger or
take responsibility for his behavior.” 10
Finally, the District Court held that a suite of conditions—or “undertakings”—would “sufficiently ameliorate
the grave risk of harm to B.A.S.” and granted Mr. Saada’s
petition subject to those conditions. 11 The undertakings
include, among others, requirements that Mr. Saada (1)
give Ms. Golan $30,000 before B.A.S. is returned to Italy,
for housing, financial support, and legal fees; (2) stay away
from Ms. Golan; and (3) visit B.A.S. only with Ms. Golan’s
consent.
9

Id. at *16.

10

Id. at *18.

11

Id. at *19.

31a
This appeal followed.
II. DISCUSSION
On appeal, Ms. Golan challenges the District Court’s
conclusion that Italy is B.A.S.’s habitual residence, and its
decision to grant Mr. Saada’s petition subject to the enumerated undertakings. We affirm the District Court’s habitual‐residence determination but vacate its order insofar as it grants Mr. Saada’s petition.
A. Standard of Review
In cases arising under the Hague Convention, we review a district court’s factual findings for clear error and
its legal conclusions—including its interpretation of the
Convention and its application of relevant legal standards
to the facts—de novo. 12 Thus, as relevant here, although
“[t]he habitual residence inquiry is heavily fact dependent, . . . whether the relevant facts satisfy the legal standard is a question of law that we review de novo.” 13
B. Country of Habitual Residence
We take up first Ms. Golan’s challenge to the District
Court’s conclusion that Italy is B.A.S.’s habitual residence
for the purposes of the Hague Convention.
12

Ozaltin v. Ozaltin, 708 F.3d 355, 368 (2d Cir. 2013).

Guzzo v. Cristofano, 719 F.3d 100, 109 (2d Cir. 2013). On June 10,
2019, the Supreme Court granted certiorari to resolve a split among
the Courts of Appeal concerning the appropriate standard of review
for habitual‐residence determinations. See Taglieri v. Monasky, 907
F.3d 404 (6th Cir. 2018) (en banc), cert. granted, No. 18‐935, --- U.S. -- , 139 S.Ct. 2691, --- L.Ed.2d --- , 2019 WL 266837 (U.S. June 10,
2019). Since we affirm the District Court’s conclusion that Italy is
B.A.S.’s habitual residence under the least deferential standard—de
novo review—we would necessarily affirm under the more deferential
standards that other Circuits have applied.
13

32a
In determining habitual residence, courts in this Circuit “inquire into the shared intent of those entitled to fix
the child’s residence (usually the parents) at the latest
time that their intent was shared,” considering both “actions” and “declarations.” 14 We have observed that
“[f]ocusing on intentions gives contour to the objective,
factual circumstances surrounding the child’s presence in
a given location.” 15 But we have also cautioned that, at bottom, this inquiry “is designed simply to ascertain where a
child usually or customarily lives.” 16
On review, we see no error in the District Court’s conclusion that Italy is B.A.S.’s country of habitual residence.
We acknowledge that certain evidence, particularly the
declarations of both parties concerning Ms. Golan’s intent
to return to the United States, supports Ms. Golan’s position. But we agree with the District Court that the parties’
actions tell a different story—namely, that Italy, where
B.A.S. spent almost the entirety of the first two years of
his life, is the country where he “usually or customarily
lives.”17 Accordingly, we affirm the District Court’s habitual‐residence determination.
C. Undertakings
Ms. Golan also challenges the District Court’s decision
to grant Mr. Saada’s petition notwithstanding its determination that repatriating B.A.S. would expose him to a
grave risk of harm. 18 In particular, Ms. Golan contends
14

Gitter v. Gitter, 396 F.3d 124, 134 (2d Cir. 2005).

15

Id. at 132.

16

Guzzo, 719 F.3d at 109.

17

See id.

18
Mr. Saada does not contest the District Court’s grave‐risk determination, and we do not revisit it here.

33a
that the District Court erred in concluding that a suite of
undertakings—or promises by Mr. Saada—sufficiently
ameliorates the grave risk of harm to B.A.S.
We have long recognized that district courts are
“vested with considerable discretion under the [Hague]
Convention.” 19 Thus, even where the abducting parent establishes that repatriating his or her child would expose
the child to a grave risk of harm, a district court “is not
necessarily bound to allow the child to remain with the abducting parent.” 20 In exercising their discretion in such
cases, district courts must “take into account any ameliorative measures (by the parents and by the authorities of
the state having jurisdiction over the question of custody)
that can reduce whatever risk might otherwise be associated with a child’s repatriation.” 21 Insofar as certain of
these measures might be undertaken by courts in the
country of habitual residence, then “the exercise of comity
that is at the heart of the [Hague] Convention” requires
us “to place our trust in th[ose] court[s] . . . to issue whatever orders may be necessary to safeguard children who
come before [them].” 22
19

Souratgar v. Lee, 720 F.3d 96, 103 (2d Cir. 2013).

Blondin v. Dubois, 189 F.3d 240, 246 n.4 (2d Cir. 1999); see also
Hague Convention, art. 13 (permitting, but not requiring, contracting
states to decline “to order the return of the child” if certain exceptions
are established); U.S. Dep’t of State, Hague International Child Abduction Convention; Text and Legal Analysis, 51 Fed. Reg. 10,494,
10,509 (Mar. 26, 1986) (“[A] finding that one or more of the exceptions
provided by Articles 13 and 20 are applicable does not make refusal
of a return order mandatory. The courts retain the discretion to order
the child returned even if they consider that one or more of the exceptions applies.”).
20

21

Blondin, 189 F.3d at 248.

22

Id. at 248–49.

34a
At the same time, the jurisdiction of our district courts
is not limitless. As the Eleventh Circuit has aptly observed, “reviewing courts are free to enter conditional return orders” but “retain no power to enforce those orders
across national borders.” 23 And in those instances in which
our courts lack jurisdiction to redress non‐ compliance,
“even the most carefully crafted conditions of return may
prove ineffective in protecting a child from risk of harm.” 24
We conclude that, in cases in which a district court has
determined that repatriating a child will expose him or
her to a grave risk of harm, unenforceable undertakings
are generally disfavored, 25 particularly where there is
reason to question whether the petitioning parent will
comply with the undertakings and there are no other “sufficient guarantees of performance.” 26

Baran v. Beaty, 526 F.3d 1340, 1350 (11th Cir. 2008); cf. Ermini
v. Vittori, 758 F.3d 153, 168 (2d Cir. 2014) (“Once a determination
properly applying the Convention to the facts at hand has been made,
all other issues leave the realm of the treaty’s domain. The Convention is not, and cannot be, a treaty to enforce future foreign custody
orders, nor to predict future harms or their dissipation.”).
23

Baran, 526 F.3d at 1350; see also Danaipour v. McLarey, 286
F.3d 1, 21 (1st Cir. 2002) (“The court entertaining the petition must
recognize the limits on its authority and must focus on the particular
situation of the child in question in order to determine if the undertakings will suffice to protect the child.”).
24

Baran, 526 F.3d at 1350; see also Danaipour v. McLarey, 286
F.3d 1, 21 (1st Cir. 2002) (“The court entertaining the petition must
recognize the limits on its authority and must focus on the particular
situation of the child in question in order to determine if the undertakings will suffice to protect the child.”).
25

26
See Walsh v. Walsh, 221 F.3d 204, 219 (1st Cir. 2000) (“A potential grave risk of harm can, at times, be mitigated sufficiently by the
acceptance of undertakings and sufficient guarantees of performance
of those undertakings.” (emphasis added)).

35a
In this case, it is undisputed that many of the undertakings the District Court imposed are unenforceable because they need not—or cannot—be executed until after
B.A.S. is returned to Italy. This includes several conditions that, under the circumstances, are essential to mitigating the grave risk of harm B.A.S. faces—namely,
promises by Mr. Saada to stay away from Ms. Golan after
she and B.A.S. return to Italy and to visit B.A.S. only with
Ms. Golan’s consent. 27 The District Court’s factual findings provide ample reason to doubt that Mr. Saada will
comply with these conditions. 28 And the record does not
otherwise contain evidence of sufficient guarantees of
performance. Under the circumstances, we are not convinced that these particular undertakings are sufficient to
mitigate the undisputed grave risk of harm that B.A.S.
faces if returned to Italy. Accordingly, we vacate the District Court’s order insofar as it granted Mr. Saada’s petition subject to the conditions enumerated therein.
D.

Availability
Measures

of

Alternative

Ameliorative

Having determined that the undertakings the District
Court imposed are insufficient under the circumstances
presented here, we must determine whether to direct the
District Court to deny Mr. Saada’s petition or to remand
for further proceedings concerning the availability of alternative measures. In our view, the latter course is more
appropriate.
As we have previously observed, in cases of this nature, it is important for courts to consider “the [full] range
27

See note 11 and accompanying text, ante.

28
See note 10 and accompanying text, ante; see also Saada, 2019
WL 1317868, at *18 (recounting testimony of Mr. Saada’s expert that
Mr. Saada’s “reliability was ‘down the tube’”).

36a
of remedies that might allow both the return of the children to their home country and their protection from
harm.” 29 District courts have “broad equitable discretion
to develop a thorough record” on potential ameliorative
measures. 30 And, in our view, it is by no means inevitable
that there will be no conditions conducive to balancing our
commitment to ensuring that children are not exposed to
a grave risk of harm with our general obligation under the
Hague Convention to allow courts in the country of habitual residence to address the merits of custody disputes. 31
On review, we cannot conclude that the record before
the District Court would have permitted a finding that
this is such a case. Accordingly, we think it appropriate to
remand the cause to the District Court for further proceedings. On remand, the District Court must determine
whether there exist alternative ameliorative measures
that are either enforceable by the District Court or, if not
directly enforceable, are supported by other sufficient
guarantees of performance.
In doing so, the District Court may consider, among
other things, whether Italian courts will enforce key conditions such as Mr. Saada’s promises to stay away from
Ms. Golan and to visit B.A.S. only with Ms. Golan’s con-

29

Blondin, 189 F.3d at 249 (emphasis in original).

30

Id.

31
See Blondin v. Dubois, 238 F.3d 153, 163 (2d Cir. 2001) (affirming
district court’s decision declining to order return and emphasizing
that “uncontested expert testimony” established that “the children
will face a recurrence of traumatic stress disorder if repatriated” (emphasis added)); see also id. at 162 (noting that “the authorities in [the
country of habitual residence]—for reasons entirely beyond their
control—cannot provide the children with the necessary protection”).

37a
sent. There is some dispute concerning whether it is appropriate for courts in the United States to condition orders of return on a foreign court’s entry of an order containing similar protective measures. 32 But we do not think
that international comity precludes district courts from
ordering, where practicable, that one or both of the parties apply to courts in the country of habitual residence
for any available relief that might ameliorate the grave
risk of harm to the child. 33 So long as the purpose of such
an order is to ascertain the types of protections actually
available, and the district court does not condition a child’s
return on any particular action by the foreign court, there
is little risk that this “practice would smack of coercion of
the foreign court.”34
Compare Danaipour, 286 F.3d at 23 (“Conditioning a return order on a foreign court’s entry of an order . . . raises serious comity
concerns.”), with Baran, 526 F.3d at 1349 (“Undertakings may take
many forms, including direct orders by the reviewing court providing
conditional return of the child and mirror‐orders (also called safe harbor orders) requiring the petitioning parent to obtain a conditional
custody order in the country of habitual residence before return of
the child is ordered.”).
32

In most cases, the international comity norms underlying the
Hague Convention require courts in the United States to assume that
an order by a foreign court imposing protective measures will guarantee performance of those measures. See note 22 and accompanying
text, ante. But, in certain circumstances, even a foreign court order
might not suffice. See Simcox, 511 F.3d at 608 (“[U]ndertakings
would be particularly inappropriate . . . in cases where the petitioner
has a history of ignoring court orders.”); Walsh, 221 F.3d at 221 (rejecting use of undertakings where petitioning parent “violated the orders of the courts of Massachusetts” and “the courts of Ireland,” and
there was “every reason to believe that he [would] violate the undertakings he made to the district court in this case and any barring orders from the Irish courts”).
33

34

Danaipour, 286 F.3d at 23.

38a
Here, the District Court has already found—and the
parties do not dispute—that Italian courts are authorized
by Italian law to enter “criminal and civil court orders of
protection” and “orders of supervised visitation during
the pendency of custody proceedings.”35 Although the
Italian courts have not entered any such orders to date in
the matter before us, this might be attributable in part to
the parties’ failure to apply for relief, in the ongoing custody proceedings or otherwise. On remand, the District
Court may consider whether it is practicable at this stage
of the proceedings to require one or both of the parties to
do so. 36 The District Court may then take into account any
corresponding decision by the Italian courts in determining whether there are sufficient guarantees of performance of protective measures that will mitigate the grave
risk of harm B.A.S. faces if repatriated.
This is, of course, just one of several avenues the District Court may elect to pursue. As an initial matter, the
District Court can attempt to revise certain of the undertakings it imposed in a manner that would render them
directly enforceable—for example, by requiring Mr.
Saada to comply with the condition before B.A.S. is repatriated. 37
In addition, as we have previously recognized, the District Court can use its “broad equitable discretion” to “request[ ] the aid of the United States Department of State,
35

See Saada, 2019 WL 1317868, at *13.

And, it almost goes without saying, the parties can petition the
Italian courts to impose protective measures even without prompting
by the District Court.
36

37
We note, for instance, that the condition pertaining to monetary
support requires Mr. Saada to act before B.A.S. returns to Italy. See
note 11 and accompanying text, ante.

39a
which can communicate directly with” the government of
Italy to ascertain whether it is willing and able to enforce
certain protective measures. 38 Finally, the District Court
can solicit from the parties additional evidence concerning
whether—and, if so, to what extent—Mr. Saada has undertaken to abide by any of the currently unenforceable
conditions. We leave these matters to the informed discretion of the District Court and “trust that [it] will conduct
the[ ] proceedings on remand with the same dispatch that
properly characterized its initial consideration” of the petition. 39
III. CONCLUSION
To summarize, we hold that:

(1) The District Court did not err in concluding that Italy is B.A.S.’s “habitual residence” for the purposes of the Hague Convention.

(2) In cases in which a court has determined

that repatriating a child will expose him or
her to “a grave risk of harm,” unenforceable undertakings are generally disfavored,
particularly where there is reason to question whether the petitioning parent will
comply with the undertakings and there
are no other sufficient guarantees of performance. Here, the District Court erred in
granting the petition subject to (largely)
unenforceable undertakings despite adverse factual findings concerning Mr.
Saada’s credibility and the absence of

38

Blondin, 189 F.3d at 249.

39

Id.

40a
other sufficient guarantees of performance.

(3) Because the record before the District

Court does not support the conclusion that
there exist no protective measures sufficient to ameliorate the grave risk of harm
B.A.S. faces if repatriated, remand for further proceedings is appropriate.

(4) On remand, the District Court should con-

sider whether there exist alternative ameliorative measures that are either enforceable by the District Court or supported by
other sufficient guarantees of performance.

(5) Where, as here, the safety of a minor is at

risk, the District Court, if it deems practicable, may direct one or both of the parties
to petition Italian courts for the imposition
of any appropriate protective measures.
The District Court may take into account
any corresponding decision by the Italian
courts in determining whether to issue an
order of return.

For the foregoing reasons, the District Court’s March
22, 2019 order is AFFIRMED IN PART and VACATED
IN PART, and the cause is REMANDED for further proceedings. In the interest of judicial economy, any future
appeals in this action will be referred to this panel.

41a
APPENDIX D
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

No. 1:18-CV-5292 (AMD) (LB)

ISACCO JACKY SAADA,
Petitioner,
– against –
NARKIS ALIZA GOLAN,
Respondent.

Filed: March 22, 2019

MEMORANDUM AND ORDER
DONNELLY, District Judge.
The petitioner, Isacco Jacky Saada, brings this case
against the respondent, Narkis Aliza Golan, pursuant to
the Hague Convention on the Civil Aspects of International Child Abduction (“Hague Convention”), as implemented by the International Child Abduction Remedies
Act (“ICARA”), 22 U.S.C. §§ 9001-9011. Mr. Saada, an
Italian citizen, seeks the immediate return of his two and
a half year old son, B.A.S., to Italy. He alleges that in August of 2018 Ms. Golan, the child’s mother and an American citizen, wrongfully kept B.A.S. in the United States.

42a
Mr. Saada filed this petition on September 19, 2018. 1
(ECF No. 1.) A nine day bench trial began on January 7,
2019, during which Mr. Saada called 11 witnesses, including four experts. Ms. Golan called six witnesses, including
three experts.
Based on my review of the entire record, the parties'
submissions and arguments, and my observations of the
witnesses at trial, I conclude that the petition should be
granted, subject to certain conditions to ensure the child’s
safety.
I do not come to this conclusion lightly. The record is
clear that Mr. Saada’s abuse of Ms. Golan and the parties'
volatile relationship is harmful to B.A.S. But I do not act
as a family court. My task is not to determine the best interests of B.A.S. or Ms. Golan, or to impose custody arrangements. Under the Hague Convention, I must determine whether B.A.S. should be returned to Italy for custody proceedings. I must first decide whether B.A.S.’s habitual residence is Italy, and if it is, whether he would be
subject to grave risk of harm upon repatriation, and
whether there are any measures that can ameliorate that
risk. For the reasons set forth below, I find that B.A.S.’s
habitual residence is Italy, that he would be subject to
grave risk of harm upon repatriation, and that there are
measures that can be taken to ameliorate the risk.
FINDINGS OF FACT

At the Court’s direction, Ms. Golan surrendered her passport, as
well as B.A.S.’s passport for the pendency of the proceedings. The
parties negotiated supervised visitation during the adjudication of the
petition.
1

43a
The 31 year old petitioner, an Italian citizen, was born
and currently resides in Milan, Italy. (ECF No. 39 ¶ 1; Tr.
820:3-8.) He has worked at his father’s fashion and garment manufacturing company since he was 17 years old.
(Tr. 52:4-6, 820:12-20; see also Tr. 1053:16-19.) The 28 year
old respondent, an American citizen, was born in Brooklyn, New York, and currently resides in New York. (ECF
No. 39 ¶ 2.) Mr. Saada and Ms. Golan have one child, two
and a half year old B.A.S., who was born in Italy and has
dual Italian and American citizenship. (Id. ¶ 3; R-8 at 1;
R-12.)
The evidence established that the parties' relationship
was turbulent from its inception, characterized by loud arguments and violence, most of which was perpetrated by
Mr. Saada. At trial, neither Mr. Saada nor Ms. Golan was
entirely credible. Mr. Saada admitted that he was violent
toward Ms. Golan, but downplayed the frequency and severity of the abuse, and at points in his testimony, excused
his behavior as justified by Ms. Golan’s “provocation.” For
her part, Ms. Golan exaggerated at points in her testimony. She was sometimes evasive and feigned confusion
or failure of memory when confronted with evidence that
she perceived to be unhelpful to her position. 2

Following the trial, the petitioner’s attorney alerted the Court to
Ms. Golan’s postings on social media. Although the Court took steps
to protect B.A.S.’s identity, given the highly personal and sensitive
evidence about B.A.S. and his parents, Ms. Golan posted photographs
of herself and B.A.S. on Instagram and encouraged her more than
200 followers to “follow” the trial. (ECF No. 54-1.) She included various hashtags: #judgeanndonnelly, #ellendegeneres, #michelleobama, #oprahwinfrey, #donttakemybaby, and #domesticviolencesurvivor. (Id. at 1-3.) One of the captions stated, “I am currently
awaiting a court response by #judgeanndonnelly who is to decide
whether my abuser gets to take my son back to his habitual place of
birth or that perhaps we've been through enough and can stay here,
2

44a
In the context of this case, however, the parties' credibility deficits were less significant because of the independent evidence—in the form of text messages, photographs, and Ms. Golan’s contemporaneous recordings—of
Mr. Saada’s violence toward Ms. Golan, often in front of
the young child who is the subject of this proceeding.
I. HABITUAL RESIDENCE
The parties met at a wedding in Milan, Italy, on June
13, 2014. (Tr. 23:21-22, 821:17-19.) They started a relationship, and on August 25, 2014, Ms. Golan moved to Milan.
(Tr. 27:14-18, 195:10-15, 822:25-823:6.) At first, she stayed
with Mr. Saada at one of his family’s apartments, in the
same building where his family lived, at Via Luigi Soderini
35, Milan, Italy. 3 (Tr. 27:19-29:3, 820:23-821:9; ECF No.
39 ¶ 4.)
The couple broke up in October of 2014, and Ms. Golan
returned to New York. (Tr. 832:21-25, 835:18-20.) They
reconciled about two months later, in December, and Mr.
Saada came to New York to see Ms. Golan. (Tr. 835:21836:5.) They were engaged on February 18, 2015, and
lived together in Milan in an apartment away from Mr.
Saada’s family until September of 2015. (Tr. 44:13-19,
847:22-848:15, 856:9-15.) They were married in a religious

in my country where I know I’m safe and protected. Follow my story
on google (saada vs. Golan).” (Id. at 1.) In another post, she stated,
“I’ve remained quiet for 2 years of your life because daddy and his
family have lots of money and power. Something mommy didn’t
have.” (Id. at 2.)
3
Mr. Saada’s grandparents lived in an apartment on the second
floor, his parents and two brothers lived in an apartment on the third
floor, and his sister, her husband, and their three children lived in an
apartment on the fifth floor. (Tr. 821:3-13.)

45a
ceremony 4 on August 18, 2015, in Tel Aviv, Israel. 5 (Tr.
24:11-18, 986:23-987:6.)
The parties lived in Italy after the marriage. (Tr.
59:17-20.) Although Ms. Golan did not want to live with
Mr. Saada’s family, the couple moved to an apartment in
the building where Mr. Saada’s family lived. (Tr. 59:2360:18, 62:2-4; see also Tr. 856:23-857:20.) Ms. Golan got
pregnant around September of 2015. (Tr. 281:2-8.) During
a 2016 trip to New York, she explored the possibility of
having the baby at Coney Island Hospital, but subsequently returned to Milan. (Tr. 77:10-78:2.)
B.A.S. was born in Milan in June of 2016. (Tr. 861:22862:1; P-59.) Mr. Saada and Ms. Golan filled out and
signed various documents for B.A.S.; they got him an Italian passport, medical coverage, identification cards, and a
certificate of residence. 6 (Tr. 865:1-20, 1015:5-9; P-35; P58; P-60.) They continued to live in the same apartment,
and B.A.S. received all of his medical care in Italy. 7 (Tr.
237:8-11, 1015:22-24.) In March of 2017, Ms. Golan regis-

They never registered the marriage in any country; as a result,
Ms. Golan could not work legally in Italy. (Tr. 24:17-18, 157:22-158:6,
914:17-21; R-8 at 1; R-9 at 1.)
4

5
In papers opposing the petition, Ms. Golan described her marriage as “arranged” by her family. (ECF No. 20 ¶ 6.) She testified that
she meant that her aunt and cousin introduced her to Mr. Saada, and
she “felt a little bit pressured to get married.” (Tr. 258:10-259:15.)

Ms. Golan testified that Mr. Saada drove her to these places right
after B.A.S. was born, and that she did not understand the paperwork
that she signed. (Tr. 86:19-87:9.)
6

7
Mr. Saada’s sister, Jenny Saada, who lived in the family building,
testified that B.A.S. had a close relationship with her three children,
ages five, three, and one. (Tr. 1255:12-1256:9.)

46a
tered B.A.S.’s birth abroad with the United States consulate in Italy without telling Mr. Saada. (Tr. 227:11-15,
231:7-17, 890:2-4; R-12.)
Before July of 2018, B.A.S. had left Italy only three
times: twice to Israel, and once, with both parents, to the
United States in the summer of 2017. (Tr. 96:21-97:1,
137:23-138:8, 209:15-25, 872:24-873:6, 886:17-18.)
On July 28, 2017, while she and Mr. Saada were in the
United States, Ms. Golan applied for a Social Security
card for B.A.S., but did not tell Mr. Saada. (Tr. 141:14-16,
889:24-890:1; R-11.) On August 15, 2017, Ms. Golan filed a
custody petition in New York Family Court, Kings
County seeking full custody of B.A.S. (Tr. 142:17-143:3; R14.) The Kings County Family Court dismissed the case
for lack of jurisdiction. 8 (Tr. 1425:14-21.) In any event, Ms.
Golan returned to Italy, because Mr. Saada promised to
change, “work on” their marriage and go to counseling.
(Tr. 143:22-144:8.) Around this time, the parties enrolled
B.A.S. in Scuola del Merkos, a school and daycare, in Milan. (P-88; Tr. 205:1-11.)
In January of 2018, Mr. Saada came to New York after
a fight with his brother over the family business. (Tr.
918:14-22; see also Tr. 163:10-16, 371:14-372:2, 918:14-23;
R-29.) He considered getting an apartment for himself,
Ms. Golan, and B.A.S. (Tr. 374:6-18.) He also looked at
boutique storefront locations, met with business contacts,
and talked to Ms. Golan’s brother, Eldar Golan, about going into business. (Tr. 161:22-162:15, 371:14-22, 374:6-13.)
Ultimately, he decided not to move to New York because
his father agreed to give him an increased share of the

8
At some point, Ms. Golan gave Mr. Saada a copy of the custody
petition, which he apparently ripped up. (Tr. 143:10-14.)

47a
family business. (Tr. 163:24-164:6, 374:24-375:4, 918:1825.)
On July 18, 2018, Ms. Golan and B.A.S. flew to the
United States, with Mr. Saada’s consent, to attend Eldar
Golan’s wedding. (ECF No. 39 ¶ 5; Tr. 172:8-13.) Although
they were scheduled to return to Italy on August 15, 2018,
Ms. Golan stayed in New York, and moved to a confidential domestic violence shelter. 9 (ECF No. 39 ¶¶ 5-6; see
also Tr. 172:19-24, 176:9-16, 901:25-902:6; P-46.)
Ms. Golan claimed that she never agreed to live permanently in Italy or to have B.A.S. live there. (Tr. 142:1416; see also Tr. 917:14-918:13.) And Mr. Saada testified
that Ms. Golan “would just try all these years just to make
me, make me fight with my family, take me away ... bring
me to America. That was all her plan from day one.” (Tr.
967:20-23.) She “always told [him] she want[ed] to move to
the U.S.,” she asked him “constantly” to “move to the
U.S.,” and her “often-expressed desire to move to the
United States” was a “point of contention” in their relationship, causing frequent arguments. (Tr. 917:14-918:13;
see also ECF No. 31 ¶ 6.) But Mr. Saada never agreed to
move to the United States. (See Tr. 917:14-918:25.)
Ms. Golan left Milan without Mr. Saada both before
and after B.A.S. was born, but until July 2018, always returned to Milan. She claimed that she returned only because Mr. Saada and his family promised that he would not
assault her and that he would seek help. (See Tr. 41:7-13,
44:3-14, 58:23-59:18, 78:1-12, 143:22-144:10, 214:25215:18.)

9
Ms. Golan reported that she could not stay with her mother, who
lives in Brooklyn. (R-296 at 27.)

48a
On September 19, 2018, Mr. Saada filed a criminal
complaint in Milan, accusing Ms. Golan of kidnapping
B.A.S. (R-8 at 3.) He initiated this action the next day.
(ECF No. 1.) He also commenced civil proceedings in Italy. (R-9 at 9-32.) Mr. Saada subsequently filed for sole custody of B.A.S. in Italy.10 (Trib. Di Milano-Sezione IX
Civile, 8 Novembre 2018, RG n. 51492/2018.)
II. VIOLENCE AND ABUSE
The evidence established that Mr. Saada and Ms. Golan fought frequently, and that Mr. Saada physically, psychologically, emotionally and verbally abused Ms. Golan.
He admitted that he slapped, pushed, and grabbed Ms.
Golan. (Tr. 842:25-843:16, 956:16-25; see also R-313 at 1213.) He estimated that he slapped Ms. Golan five or six
times, pulled her hair three or four times, pushed her four
or five times, threw a glass bottle during an argument,
yelled, swore, and called her names. 11 (Tr. 842:25-844:15.)
He also told Ms. Golan’s family that he would kill her, although he said he made the threat only out of anger. (Tr.
844:18-21.) Mr. Saada admitted that he tried to restrain
Ms. Golan, got “violent,” was “impulsive,” “los[t] control”
when he got “angry,” and hit Ms. Golan “to shut her up.”

Mr. Saada states in his post-trial brief that the “custody action in
Milan is scheduled for April 9th.” (ECF No. 59 at 37 n.23.)
10

Mr. Saada frequently insulted Ms. Golan in front of other people,
including family, friends, and at least one time, police officers. (See,
e.g., R-17; R-17A; R-18; R-18A; Tr. 602:20-603:3; see also R-20; R20A.) He called her “animal,” “bitch,” “a cancer,” “crazy,” “dirt,” “disgusting,” an “escort,” “fucking asshole,” “garbage,” “hadia [shit],”
“lowlife,” “merda [shit],” “piece of shit,” “poison,” “psychopath,” “stupid,” “tramp,” and “whore.” (See, e.g., Tr. 107:9-19, 926:5-7; R-5 at 4;
R-17; R-17A at 1, 12, 14; R-18; R-18A at 2; R-19; R-19A at 2; R-21; R21A at 1; R-24; R-24A at 5.)
11

49a
(Tr. 956:19-25, 967:7-12, 991:23-992:4, 1003:16-20.) He
summarized their relationship this way:
I knew when I met Narkis that she came from a broken home and she really come with the best intention
the first time to Milano. I know I did a lot of mistakes,
too. I'm a cheater, I get violent, I say things that I
shouldn't say, maybe sometime I, in a stupid way, I
took advantage—not advantage, but not—I felt comfortable doing certain things because she didn't know
to, maybe to protect herself. I mean, I did a lot of bad
things to Narkis. . . .
(Tr. 967:10-12.)
Mr. Saada and Ms. Golan fought “on a daily basis.”
(Tr. 966:6-7.) The fights often resulted in one of them leaving the house. (Tr. 966:11-15.) Mr. Saada was “sure” that
B.A.S. heard “screaming and fighting and yelling.” (Tr.
969:4-10.)
Although Mr. Saada was far and away the more violent, there were times when Ms. Golan fought with and
yelled at him. She conceded that she scratched and kicked
Mr. Saada, and verbally abused him. (Tr. 106:6-15, 223:725; R-5 at 5.) According to Mr. Saada, Ms. Golan slapped
him a few times, scratched him about ten times, bit him
about five or six times, spit in his face, kicked him, and
often yelled at him. (Tr. 844:22-25, 845:3-25, 846:21-847:1.)
She called him names, insulted his family, and at one point
said that she wished his family would die. (Tr. 847:2-7,
847:12-13.)
There is no significant evidence that Mr. Saada was
intentionally violent to B.A.S. Eldar Golan described one
time that Mr. Saada put B.A.S. on his shoulder when
B.A.S. was crying, and “hit him really hard on his behind.”
(Tr. 370:21-371:2.) Ms. Golan claimed that Mr. Saada,

50a
while dragging her out of the apartment, also pushed
B.A.S. (Tr. 156:10-21.) However, Ms. Golan frequently left
B.A.S. with Mr. Saada while she ran errands, or went out
with friends. (See Tr. 536:6-18, 618:7-15, 1036:21-1037:19,
1042:13-18.) She also testified that she wants B.A.S. and
Mr. Saada to have a relationship. 12 (Tr. 302:17-22.)
A. Incidents
1. Before B.A.S.’s Birth (December of 2014 to
May of 2016)
The parties' relationship was violent and contentious
almost from the beginning. During a December 2014 trip
to New York, Mr. Saada slapped Ms. Golan; he admitted
in a subsequent text message exchange that he had
“smash[ed]” 13 Ms. Golan on two other occasions—once at
a hotel and once at “[M]icol[’s] wedding.” 14 (Tr. 34:14-35:7,
39:8-40:20; R-39.) Ms. Golan testified that Mr. Saada
slapped her while they were in Israel planning their wedding, an accusation that Mr. Saada denied. (Tr. 45:14-22,
849:19-23.)
On another occasion, after Mr. Saada argued with his
mother about Ms. Golan’s refusal to attend Shabbat dinner, Mr. Saada screamed at Ms. Golan, “You are poison.
Look what you caused me to be.... You ruined me.... What
are you, an animal?” (Tr. 46:1-14, 850:20-22; R-21; R-21A.)
He threw a glass bottle, which shattered against a wall
behind Ms. Golan. (Tr. 46:1-14, 850:20-22; R-21; R-21 A.)
12
Similarly, Mr. Saada believed that Ms. Golan was a good mother,
and that she was “an able and loving parent.” (Tr. 999:25-1000:4.)

Mr. Saada, whose first language is Italian, testified that when he
wrote “smash,” he actually meant “slap.” (Tr. 838:3-6.)
13

14
Mr. Saada admitted the New York incident, but claimed not to
recall anything at a hotel or Micol’s wedding. (Tr. 938:3-939:25.)

51a
Ms. Golan testified that he aimed for her; Mr. Saada admitted that he threw the bottle, but said that he threw it
at the wall opposite Ms. Golan. 15 (Tr. 46:1-14, 850:22-24.)
Mr. Saada also admitted that he slapped Ms. Golan in
June of 2015 after she threw water in his face. (Tr. 944:1725.) In a text message to Ms. Golan’s mother, Mr. Saada
said he “smash[ed] [Ms. Golan’s] face without thinking as
[a] reaction.” (R-40 at 6.)
During the parties' honeymoon in Florida, Ms. Golan
looked at Mr. Saada’s iPad, and discovered that before
their wedding he had sex with a prostitute in London. 16
(Tr. 49:22-51:25, 851:21-852:7.) Ms. Golan left at one point,
and stayed with her grandmother in New York. (Tr. 52:1525.) According to Ms. Golan, Mr. Saada came to the house,
slapped her, pulled her hair, and punched her in the face.
(Tr. 56:6-20.) Eldar Golan said that the parties were “yelling and screaming” at each other, and that Mr. Saada
punched Ms. Golan in the face “several times.” (Tr.
366:11-22.) Mr. Saada denied the violence; he said that Ms.
Golan put her hands over her ears when he tried to apologize, so he tried to remove her hands from her ears. (Tr.
852:3-854:1, 956:10-957:19.)
Ms. Golan became pregnant with B.A.S. in September
of 2015. (Tr. 281:2-8.) She testified that Mr. Saada attacked her several times while she was pregnant. On one
occasion, when she and Mr. Saada were in a car, she told
him that she could not continue their relationship and
wanted to go back to New York. (Tr. 63:1-12.) Mr. Saada
became angry and said, “You want to leave me? You think
Ms. Golan made an audio recording of this incident. (R-21; R21A.)
15

16
Mr. Saada admitted that he slept with other women, including
prostitutes and “models.” (R-313 at 14 n.4; Tr. 926:8-25.)

52a
you're going to leave me? Huh?” (Tr. 63:143-64:3.) He
grabbed her by the hair, and “bash[ed] [her] face against
the dashboard,” causing her sunglasses to cut her face.
(Tr. 64:4-12; see also Tr. 607:13-608:4.) Mr. Saada denied
that this happened. (Tr. 858:1-6.)
Another time, Mr. Saada hit Ms. Golan because she
missed Passover dinner with his family. (Tr. 79:19-80:20.)
Ms. Golan described an incident of “sexual violence”
during her pregnancy. While she and Mr. Saada were having consensual sex, she felt pain and asked him to stop,
but he refused. (Tr. 66:13-67:6.) Ms. Golan started bleeding, and thought she was having a miscarriage. (Tr. 67:2168:3.) She told Mr. Saada that she wanted to go to the hospital; he told her to ask his parents for permission, because they were having Shabbat dinner. (Tr. 68:4-9.) Mr.
Saada’s mother, Caroline Darwich, dismissed Ms. Golan’s
concerns: “[A]s long as you don't have chunks coming out
the size of lemons, you have nothing to worry about.”17
(Tr. 68:18-20.)
Mr. Saada eventually took Ms. Golan to the hospital
where a doctor diagnosed her with “ripped tissue,” and
released her about an hour after she arrived. (Tr. 69:2-5,
70:4-6; R-305.) As they were leaving the hospital, Mr.
Saada grabbed her by her hair, pushed her down, and
dragged her, something Mr. Saada admitted in a text
message to Ms. Golan’s mother: “When we go out of hospital [I] was d[i]stressing and [I] pull her hair ... and then
17
Ms. Golan claimed that Mr. Saada’s family was also verbally abusive toward her. Ms. Darwich screamed and swore at her, and even
told Mr. Saada to hit her. (See, e.g., R-15; R-15A; R-23; R-23A; Tr.
80:1-20, 104:15-18.) Once, after Ms. Golan missed a family dinner, Ms.
Darwich told Mr. Saada to “put some sense into this madwoman you
married.” (R-15; R-15A at 2.) Some of these incidents were recorded
on audio and video. (See, e.g., R-15; R-15A; R-23; R-23A.)

53a
[I] pull her from her jacket .. I[’]m not say[i]ng was [right]
to pull her hair but [it] was an accumulation of stress that
she keep put[t]ing me [through].” 18 (Tr. 70:8-71:11; R-44
at 1-2.)
Mr. Saada agreed that Ms. Golan was bleeding, but denied that she complained of pain during sex or asked him
to stop. (Tr. 859:4-13, 959:11-960:10.) He claimed that he
asked her repeatedly if she wanted to go to the hospital,
and she said she wanted to wait. (Tr. 859:10-15.) It was not
until the next day at Shabbat dinner that Ms. Golan said
for the first time she wanted to go to the hospital. (Tr.
859:15-20.) Mr. Saada took her to the hospital, and was
“upset” that she could not wait one more hour until dinner
was over, since she “wait[ed] all day” to say she wanted to
go to the hospital. (Tr. 859:18-23.) Mr. Saada was “annoyed or angry” with Ms. Golan for forcing him to take
her to the hospital and missing the family dinner; she
could “never let [him] enjoy any moment.” (Tr. 963:5-15.)
Mr. Saada admitted that he pulled Ms. Golan’s hair, but
said that she threw herself on the ground and screamed.
(Tr. 860:11-16, 963:14-25; see also R-44 at 1-2.) He tried to
pull her up, and told her to take a cab. (Tr. 964:1-3.) In the
end, she went home with him. (Tr. 964:3-5.)
Another time during Ms. Golan’s pregnancy, Mr.
Saada became angry with Ms. Golan and “hipped” her
while they were walking down the stairs, causing her to
lose her balance and fall down a few stairs. (Tr. 64:2163:12.) Mr. Saada said that he did not push her “down the
18
Ms. Golan claimed two security guards watched Mr. Saada assault her, but did nothing, something Ms. Golan attributed to Mr.
Saada’s “family influence” over the them. (Tr. 71:5-11, 283:20-25,
285:9-14.) Ms. Golan made a similar claim about “family influence”
over the Italian authorities in her response to the petition, but no such
evidence was introduced at the trial. (ECF No. 20 ¶ 69.)

54a
step,” but pushed her toward the wall. (Tr. 860:6-10,
861:16-18.)
2. After B.A.S.’s Birth (June of 2016 to July of
2018)
Shortly after B.A.S. was born, 19 Mr. Saada got angry
during a Monopoly game, and while B.A.S. was in the
room, hit Ms. Golan’s leg with a candle, causing a bruise.
(Tr. 101:19-102:19; R-27.) Mr. Saada admitted that he was
angry, but denied that he hit Ms. Golan. (Tr. 843:11-12,
871:9-11.)
Ms. Golan claimed that during a religious ceremony
called “pidyon haben” at their apartment, Mr. Saada
pulled her into their bedroom, and slapped her in the face
with both hands. (Tr. 88:3-89:13.) B.A.S., who was about a
month old, was in the room in his basinet (Tr. 88:23-24.)
Mr. Saada denied that this incident occurred. 20 (Tr.
867:14-19.)
About a month later, the couple took B.A.S. to Israel
for a vacation. (Tr. 96:21-97:1.) Ms. Golan claimed that Mr.
Saada slapped and punched her while she was breastfeeding B.A.S., and that he made contact with B.A.S. (Tr. 97:298:15; see also Tr. 606:24-607:12.) According to Ms. Golan,
Ms. Golan claimed that Mr. Saada forced her to leave the hospital
before she was ready. (Tr. 86:1-18.)
19

20
Ms. Golan’s brother, Eldar Golan, visited the couple at least once
in Milan, and also saw them on their trips to New York. He communicated with both, and socialized with Mr. Saada. Eldar was in Milan
for B.A.S.’s bris in June of 2016, and stayed with Ms. Golan and Mr.
Saada. (Tr. 367:17-368:1.) At one point, B.A.S. was crying; Mr. Saada
put him on his shoulder, and “began to hit him really hard on his behind,” and explained that he was “teaching [him] how to be a man.”
(Tr. 370:19-371:2.) Mr. Saada denied that he ever hit, spanked, or
pushed B.A.S. (Tr. 897:4-898:5.)

55a
the baby refused to eat for some time after the incident;
she also developed a condition in her breast. (Tr. 98:1625.) Mr. Saada denied the accusation. (Tr. 870:6-11.)
Ms. Golan also testified about an argument with Ms.
Darwich, Mr. Saada’s mother. Ms. Darwich wanted her to
celebrate an upcoming holiday, but Ms. Golan told her
that she had already made plans for that day, “asked her
to respect me,” and left the building. (Tr. 105:1-5.) When
she returned, Mr. Saada was waiting outside. (Tr. 105:69.) He angrily demanded that she apologize to Ms. Darwich. (Tr. 105:9-20.) He then grabbed Ms. Golan by the
hair, pushed her down, dragged her, and punched and
kicked her while Ms. Darwich watched from her apartment balcony. (Tr. 105:2-106:5; see also Tr. 871:12-872:21.)
Mr. Saada admitted that he was angry because Ms. Golan
was not sufficiently respectful to his mother. (Tr. 969:24970:5.) After initially claiming that Ms. Golan “thr[e]w
herself in the ground,” and “scream[ed] like crazy,” he admitted that he pushed Ms. Golan, and “maybe” pulled her
hair. (Tr. 871:12-872:21.)
Ms. Golan claimed generally that Mr. Saada forced her
to have sex “a lot,” and that there were times when she
asked him to stop, and he refused; on at least one occasion,
B.A.S. was in the bed with them. (Tr. 66:9-67:6, 92:18-93:5,
107:20-111:18.) On one occasion Mr. Saada threw her on
the bed, grabbed her crotch, and demanded, “Who owns
you, huh? Who owns you?” (Tr. 108:18-109:16.) He
pressed his thumbs on her throat until she blacked out,
and raped her. 21 (Tr. 109:19-111-1.) Mr. Saada denied this

21
Ms. Golan described another incident of forcible sex, right after
B.A.S. was born, that caused her internal stitches to rip. (Tr. 92:293:5; see also Tr. 609:11-13.)

56a
accusation, and insisted that he never raped or sexually
assaulted Ms. Golan. (Tr. 868:17-19.)
Ms. Golan took B.A.S. to visit her father in Israel in
the spring of 2017; Mr. Saada stayed in Milan because his
grandfather was very sick. (Tr. 209:13-210:8, 212:15213:13, 872:24-873:11.) At one point, Mr. Saada asked Ms.
Golan to come back to Italy so he could be with B.A.S.
while his grandfather was dying. (Tr. 874:15-21.) Ms. Golan told Mr. Saada she was not coming back. (Tr. 227:510,874:22-875:8.) Mr. Saada wrote to Ms. Golan, “I wish u
fucking die.” (R-304 at 7.) In a later text message attempting to explain his behavior, he said he was “desperate” and
“treat[ing] everyone like shit.” (Id. at 24.) He also wrote,
“I don't want to abuse u.” (Id. at 13.)
Mr. Saada’s grandfather died on April 22, 2017, while
Ms. Golan and B.A.S. were still in Israel. (Tr. 874:6-12.)
They returned to Italy four days later. (Tr. 214:11-20,
875:9-12.) Ms. Golan claimed that she returned because
Mr. Saada and his family promised that Mr. Saada would
change. (Tr. 214:21-215:2.)
On April 29, 2017, Mr. Saada’s family hosted family
and friends for the last day of Shiva. (Tr. 876:11-17, 877:48.) At one point, Mr. Saada’s father said something that
upset Ms. Golan, and she left with B.A.S. (Tr. 876:20877:3.) Later that day Mr. Saada and Ms. Golan had an
argument about keys, and Ms. Golan called the police. 22
22
This was not the first time that Ms. Golan called the Milan police
to the Saada residence. She was out one night while her son was with
a babysitter; she learned that Mr. Saada’s father had taken B.A.S.,
who was asleep, up to his apartment on the third floor. (Tr. 268:2269:1.) Ms. Golan said that she could not reach Mr. Saada’s parents
by phone, so she called the police instead; she wanted the police to tell
the parents “to notify [her] before taking the child” because she was
“afraid of them.” (Tr. 268:9-13, 269:22-24.)

57a
(Tr. 877:9-878:17.) She also threatened to call her mother,
and Mr. Saada twisted her arm. (Tr. 112:5-11.) Ms. Darwich arrived at some point, and directed Mr. Saada to record Ms. Golan as she called the police. 23 (Tr. 878:11-17.)
Ms. Darwich then called her best friend, and asked her
to send her attorney husband, Paolo Siniscalchi, because
“[i]t’s already the third time she called the police on us.”
(Tr. 878:2-7.) The police arrived and interviewed the parties separately. (Tr. 881:15-20.) Mr. Siniscalchi also arrived, directed everyone to calm down, and told them,
“[T]his is not a game.” (Tr. 881:21-24.) Mr. Saada asked
the police not to involve Social Services; one of the officers
responded that it was his responsibility to do so. (Tr.
882:15-20.)
Ms. Golan recorded a portion of the parties' interaction with the police, and Mr. Siniscalchi translated some
of the conversation between Ms. Golan and the officers.
(See R-17; R-17A.) At one point, Ms. Golan told the police
that Mr. Saada did not hit her that day, but assaulted her
when she was pregnant with B.A.S. (R-17; R-17A at 1516.) The police asked if Ms. Golan wanted to go to a hotel.
(R-17; R-17A at 17.) She initially said that she “want[ed]
to take [her] son and ... go to a hotel,” but later said, “We
can work something out,” and “I don't want to take my son
away from [Mr. Saada] and I don't want him to take my
son away from me.” (R-17; R-17A at 16-18.) Ms. Golan did
not want the police to arrest Mr. Saada; she wanted them
to tell him not to hit her and to “warn him not to do it
again.” (Tr. 233:8-10.) The police ultimately referred the
case to Milan Social Services. (See R-5.)
23
Because Ms. Golan frequently recorded Mr. Saada, Ms. Darwich
told him “Do the same. Now she’s saying that you're beating her up,
take the phone and record her.” (Tr. 878:11-17.)

58a
Social Services began an investigation in the fall of
2017, and representatives interviewed Mr. Saada and Ms.
Golan separately about five or six times and together
about ten times. (Tr. 884:2-25.) In a December 20, 2017
report, Social Services noted “highly concerning issues ...
which are connected to the dynamics of the conflict existing between the two parents, and which also culminate in
reciprocal acts of violence, both physical and psychological, as also recognized by both” Mr. Saada and Ms. Golan.
(R-5 at 7.) The report cites Mr. Saada’s “scarce awareness
of the consequences of said conflicts on his family unit,”
and his tendency to “blame Ms. Golan entirely;” “even
when recounting serious events, he minimizes the effects
that they have on himself and the family relationships.”
(Id.) Moreover, Mr. Saada was “not very capable to comprehend that his behavior, even if not directed at the child,
has a negative consequence on [the child’s] development.”
(Id. at 4.)
The report also specified that social workers offered to
place Ms. Golan in a safe house, but that she “declared she
was feeling capable of keeping under control anything
that might happen and manifested her difficulties in trying to concretely modify the status quo.”24 (R-5 at 7.) Social Services noted the “significant role ... played by the
presence and proximity of Mr. Saada’s extended family,
which appears not to represent a resource in terms of
marital conflict mediation but rather a reason for further
discord.” (Id.)
The report also commented on the financial aspects of
the couple’s relationship. “The financial issue seems to be
a decisive factor in [Ms. Golan’s] choices. . . .” (Id. at 5.)
24
Ms. Golan claimed that she declined the safe house because she
did not know if she could take B.A.S. with her. (Tr. 319:15-20.)

59a
Ms. Golan stated that she “would leave [Mr. Saada] only
if [she] was sure that [B.A.S.] could maintain the same
lifestyle.” (Id.) Ms. Golan had “neither a valid Permit to
Stay nor financial autonomy,” and therefore “could not be
free, unrestricted from her husband and his family,” and
Mr. Saada kept her from gaining financial and legal independence. (See, e.g., R-5 at 5; R-306.3; R-306.3A at 8; Tr.
157:22-158:8, 382:8-13.)
In the final session with Social Services, “both husband and wife said they had recently found a balance in
their relationship, due to mutual commitment and also
probably due to the involvement of a third party (Social
Services and Judicial Authority).” (R-5 at 7.) Nevertheless, Social Services concluded that “the family situation
entails a developmental danger for the [child],” and requested that the Judicial Authority “issue an order for the
protection” of the child requiring psycho-diagnostic analysis of the parties, educational intervention, and “couple
psychotherapy.” 25 (Id. at 8.)
In May of 2017, Ms. Golan recorded Mr. Saada
screaming at her to “get out of the fucking car” while she
and B.A.S. were in the back seat. (Tr. 136:3-137:22; R-24;
R-24A at 4-5.) At trial, Mr. Saada admitted that he
screamed and cursed at Ms. Golan. (Tr. 989:5-15.)
In the middle of August 2017, during their trip to the
United States, Ms. Golan and Mr. Saada were in Central
Park with B.A.S. (Tr. 137:23-138:19, 889:7-16.) Ms. Golan
told Mr. Saada that she could not find B.A.S.’s Italian
passport, and asked him to sign a form so that B.A.S.
could get a United States passport. (Tr. 138:13-21, 228:2225
Ms. Golan testified that she went to Social Services with Elena
Gemelli, a translator, and asked about the status of her case, but that
“[t]hey brushed [her] off.” (Tr. 153:24-154:19.)

60a
229:9, 887:5-888:25; R-13 at 2.) According to Ms. Golan,
Mr. Saada refused to sign the application, twisted her
arm, and threatened to “destroy” her if she called the police. 26 (Tr. 138:13-139:2; 140:23-141:3; R-13 at 2.)
Ms. Golan did go to a police precinct in Brooklyn the
next day, August 13, 2017, and told an officer that Mr.
Saada threatened to “destroy” her, and reminded her that
he “ha[d] money,” that she “ha[d] nothing,” and that his
father could “buy the police.” (Tr. 139:9-16; R-13 at 2.) Ms.
Golan did not report any physical attack. (See R-13.) She
completed a form with pre-printed questions, and checked
“Yes” to questions that asked whether Mr. Saada had
threatened to kill her or her child, strangled or choked
her, and beaten her while pregnant. (Id. at 2.) She checked
“No” for the question “Is there reasonable cause to suspect a child may be the victim of abuse, neglect, maltreatment or endangerment?” (Id.) According to Ms. Golan,
the officer said that Mr. Saada would be arrested if he hit
her while they were in New York. 27 (Tr. 233:22-23.)
Mr. Saada agreed that he and Ms. Golan argued in
Central Park about the passport application, but said that
Ms. Golan left the park. (Tr. 889:7-8, 889:13-14.) Ms. Golan
called him a few hours later, and threatened to report him
for kidnapping B.A.S. unless he brought B.A.S. to the hotel. (Tr. 889:15-21.) Mr. Saada said that he did not twist
her arm. 28 (See Tr. 889:7-21.)
B.A.S. never got a United States passport. (Tr. 140:23-141:3,
888:24-25.) Ms. Golan found his Italian passport before they returned
to Italy. (Tr. 229:13-23.)
26

27
The police did not question or arrest Mr. Saada. (Tr. 233:16234:9.)

Mr. Saada, Ms. Golan, and B.A.S. were scheduled to go to Jamaica with Ms. Golan’s mother. (Tr. 229:10-12.) Ms. Golan decided to
28

61a
In addition to filing the police report, Ms. Golan filed
a custody petition in New York Family Court in August of
2017. (Tr. 142:17-143:3; R-14.) She also sent two recordings to her best friend, Mario Kravchenko—one was the
audio recording of Mr. Saada throwing the glass bottle
against a wall, and the other was the video recording,
taken in a car, of Mr. Saada yelling at Ms. Golan while
B.A.S. was in the back seat. (R-25; R-26; Tr. 624:5-8.)
Ms. Golan testified that on September 6, 2017, Mr.
Saada twisted her arm and head-butted her. (Tr. 146:24147:15.) She went to the emergency room, and got an Xray and CAT scan for the lump that had formed on her
forehead. (Tr. 145:25-146:15, 146:24-147:16; R-37 at 3.) In
a message to a friend, Ms. Golan said that she was
“scared,” but could not tell medical personnel that she was
afraid to go home because they would “send social services.” (R-48 at 12.) Mr. Saada denied head-butting her or
twisting her arm. (Tr. 885:18-23.)
According to Ms. Golan, after Milan Social Services
completed its investigation at the end of 2017, she and Mr.
Saada continued to argue, and Mr. Saada continued to be
violent. Ms. Golan testified that during an argument after
a Shabbat dinner Mr. Saada tried to drag her out of their
apartment while B.A.S. was holding her leg. (Tr. 156:613.) Mr. Saada pushed B.A.S. with one hand while he
dragged Ms. Golan with the other, and B.A.S. fell. (Tr.
156:10-21.) Mr. Saada denied this accusation. (Tr. 897:22898:3.)
In early 2018, Mr. Saada and Ms. Golan went to a wedding. (Tr. 167:3-7, 898:6-12; ECF No. 20 ¶ 77.) According
to Ms. Golan, Mr. Saada dragged her into a bathroom,
stay in the United States with B.A.S., and Mr. Saada went on the trip
with Ms. Golan’s mother. (Tr. 230:9-16, 337:23-338:6.)

62a
locked the door, and slammed her head against a wall after she became upset with him for “flirting and dancing
and touching other girls inappropriately.” (Tr. 167:8-24;
see also Tr. 608:5-11.) He told her that her jealousy meant
that she did not “understand” how much he “fucking
love[d]” her. (Tr. 167:11-168:2.) Mr. Saada agreed that
they attended the wedding, but denied any violence; he
said that he and Ms. Golan shared a romantic kiss next to
a bathroom. (Tr. 898:13-23.)
At some point in 2018, Ms. Golan sought legal help
from an Italian lawyer. (Tr. 171:21-172:5.) In July of 2018,
Mr. Saada found a letter from the lawyer, and confronted
Ms. Golan about it while they were driving on a highway
with B.A.S. in the back seat. 29 (Tr. 170:14-171:3; see also
Tr. 840:1-2.) Ms. Golan claimed that Mr. Saada, driving at
a high speed, grabbed and twisted her crotch area, and
said, “Who owns you? Who owns you?” (Tr. 170:14-171:6;
accord Tr. 608:17-18.) Ms. Golan bit his hand, and he
punched her in the face. (Tr. 171:7-12.)
Mr. Saada agreed that they were arguing in the car,
but said that it was Ms. Golan who initiated the attack on
him; she scratched, hit and slapped him. (Tr. 840:1-5,
992:16-17.) In an effort to defend himself, he pushed her
away; he did not “know where [his] hand was going.” (Tr.
840:6-7, 841:7-17, 990:1-13.) He admitted that he “slapped
her to shut her up,” and that he hit her “more than once,”
but did so only because she was scratching him and biting
his arm while he was driving. (Tr. 991:24-992:21.) According to Mr. Saada, the incident was “very dangerous,” and
could have “ma[d]e an accident and my son die, too.” (Tr.
991:24-993:7; R-19; R-19A at 3.)
29
Ms. Golan testified that Mr. Saada was also angry about missing
a tennis lesson. (Tr. 170:23-24.)

63a
Ms. Golan brought B.A.S. to the United States in July
of 2018 so that she could attend the wedding of her
brother, Eldar Golan. (Tr. 172:8-13, 1005:14-18.) During
that time, she and Mr. Saada, who was still in Milan, communicated only sporadically. 30 (Tr. 173:1-5.) But Mr.
Saada was in regular contact with Ms. Golan’s brother.
(See Tr. 174:9-11, 381:10-19.) In one call to Eldar, Mr.
Saada said that if Ms. Golan came back to Italy, she would
“be leaving in a pine box” or he would “drive her into a
mental ward.” 31 (Tr. 386:9-11; see also Tr. 386:25-387:1.)
Eldar Golan recorded one conversation, in which Mr.
Saada said the following:
So, what she tells you, she come to you, and tell you
that I beat her up, yea, maybe I beat her up. I apply
the . . . pressure that I can but she put you in the situation where you have to defend yourself. She is a psychopath, and you can laugh here, and you can think
that I'm lying but this is the truth. . . . I smash her
means not that I beat her up, I kill her. I smash her to
shut her fucking ugly mouth, the–the curse, and the
things she do. And then she come to you, and cry like
she is a—like she is a small dog abandoned, but it’s not
like this. She, uh, behaves like an evil. She say the
worst thing in the world that make the person
crazy. . . . So it’s not that I beat up because I am violent, it’s not that I beat up every day. . . . I think if you
were in my position, you was beating her up a hundred
time more. . . .

According to Ms. Golan, Mr. Saada blocked her from contacting
him on his phone. (Tr. 173:1-5.)
30

31
Ms. Golan testified that Mr. Saada had previously threatened
that “the only way out of this marriage is in a coffin.” (Tr. 353:22354:4.)

64a
(R-19; R-19A at 2-3.)
In another call that Eldar Golan recorded, Mr. Saada
threatened that he would make sure Ms. Golan had no
money if she returned to Milan. (R-20; R-20A at 2-5.) He
refused to help her get legal status or find a place to live
in Italy, saying, “[I]f she make a request, they going to
give her an apartment, a crappy one, and . . . full of Arabs
and all the N—ers.” (R-20; R-20A at 4.)
Days later, Ms. Darwich left a voice message for Ms.
Golan admitting that Mr. Saada had “a problem—a lot of
problem.” (R-306.2; R-306.2A at 2.) Ms. Golan left her a
voice message:
[Y]ou're the only person that can help me – help us.
You know, Jacky listens to you.... So please help me.
Because I'm standing here, and I'm afraid to come
back. And this is always like this. It’s always been like
this. Every time I come here, he fights with me.
(R-306.3; R-306.3A at 10.)
Ms. Darwich responded in a voice message that it was
Ms. Golan who “must change,” that she “must be Eishet
Chayil [a woman of valor] and take the situation and make
him happy. If not, I don't think there is another solution.
I'm sorry to say. . . .” (R-306.5; R-306.5A at 2.)
B. Diane Hessemann’s Testimony
During the adjudication of this petition, licensed social
worker Diane Hessemann supervised visits between Mr.
Saada and B.A.S. Ms. Hessemann testified that B.A.S.
and Mr. Saada seemed happy together, that their relationship appeared to be loving, and that B.A.S. did not

65a
seem to be at all afraid of Mr. Saada. 32 (Tr. 1106:12-16,
1110:21-23, 1112:14-15.)
C. Expert Testimony and Submissions
1. Risk of Harm
The parties called four experts in the area of domestic
abuse and its effects on children.
Dr. Alberto Yohananoff, a psychologist with 25 years
of experience and training in forensic evaluation, testified
for Mr. Saada, as did Dr. Peter Favaro, a licensed psychologist with over 30 years of experience, who reviewed
the reports submitted by Ms. Golan’s experts. Dr. Yohananoff conducted four clinical interviews with Mr.
Saada for a total of 11 hours, and two hours of observation
of interactions between Mr. Saada and B.A.S. (R-313 at
3.) Dr. Favaro did not evaluate the parties or B.A.S. (Tr.
1360:21-1361:2.)
Dr. Stephanie Brandt, an adult and child psychiatrist
with over 30 years of experience who has testified in other
Hague Convention cases, testified for Ms. Golan, as did
Dr. Edward Tronick, a developmental and licensed clinical psychologist who has done research and written articles and books, including on the organization of adult-infant interactions and the risk factors for infants and parents. Dr. Brandt conducted four clinical interviews with
Ms. Golan for a total of seven and a half hours, and two
additional clinical interviews with Ms. Golan and B.A.S.
together. (R-296 at 2.) Dr. Tronick did not evaluate the
parties or B.A.S. (Tr. 650:2-651:4.)

32
Ms. Hessemann also saw Ms. Golan when she dropped B.A.S. off.
At one point, Ms. Golan accused Ms. Hessemann of accepting dresses
from Mr. Saada as a form of bribery. (Tr. 1126:11-1128:20.)

66a
Each expert had impressive credentials, and all were
essentially credible. They agreed that domestic violence
can have a significant effect on a child, even if the child is
not the target of the violence. Dr. Tronick testified that
exposure to domestic violence has immediate effects on
young children’s cognitive, social, and emotional development and their ability to “regulate stress.” (Tr. 631:6-11.)
It also has physiologic effects and both immediate and
long-term effects on the brain structure and organization.
(Tr. 631:12-15.) In Dr. Tronick’s view, exposure to domestic violence could have particularly severe effects on a
child as young as B.A.S. because of the stage of brain development at that age. (See Tr. 631:3-15.) Continued exposure or re-exposure to domestic violence, whether directed at the child or witnessed by the child, has a cumulative effect on the child and increases the likelihood of
later effects. (Tr. 631:19-23.) According to Dr. Brandt, exposure to domestic violence can result in “a known high
risk for the development of serious long-term mental and
even medical consequences,” and she described the “toxic
and pathogenic effect” on children and their brains. (R296 at 4.) Drs. Yohananoff and Favaro agreed that domestic violence has an effect on young children. (Tr. 1197:1415, 1362:8-11.)
The experts also agreed that exposure to Mr. Saada’s
undisputed violence toward Ms. Golan—including verbal,
emotional, psychological, and physical abuse—posed a
significant risk of harm to B.A.S. (See Tr. 1210:4-8, 1213:311, 1220:14-19, 1235:20-1236:14; R-313 at 22; accord Tr.
575:17-20; R-296 at 4-10.) Dr. Yohananoff testified that
Mr. Saada could not control his anger or his behavior, or
take responsibility for its effect on B.A.S. (Tr. 1197:23-25,
1219:10-1220:19.) Dr. Yohananoff believed Mr. Saada was
“motivated in the evaluation to vindicate himself,” was not
“completely honest,” and was “likely underreporting” his

67a
abuse of Ms. Golan; Mr. Saada’s “impulsive behavior,
emotional reactivity, poor tolerance frustration, difficulties thinking through the consequences of his behavior,
questionable judgment and a potential for explosive anger
when confronted with stressful situations” could have an
adverse effect on B.A.S. (Tr. 1213:12-1214:24; R.313 at 7,
22.) Dr. Yohananoff acknowledged that Mr. Saada’s trial
admissions of behavior that he denied in pre-trial interviews meant that his reliability was “down the tube.” (Tr.
1215:8-17.)
Drs. Yohananoff and Brandt parted company on the
question of ameliorative measures should B.A.S. return to
Italy. 33 Dr. Brandt took the position that there were no
measures that could protect B.A.S. given Mr. Saada’s history of violence not to B.A.S., but to Ms. Golan. (Tr.
593:10-594:12.) Dr. Yohananoff, on the other hand,
thought that any risk would be mitigated if Mr. Saada’s
visits with B.A.S. were supervised, and if Mr. Saada got
parental coaching and psychoeducational training. (Tr.
1202:8-1204:2, 1245:12-19.) 34

Dr. Brandt believed that B.A.S. was an “at risk” child who was
less resilient or adaptive and thus particularly susceptible to stress
due to his exposure to domestic violence. (Tr. 423:3-23.) She diagnosed B.A.S. with a severe developmental delay in his speech and language development, but acknowledged that the cause was not necessarily the child’s exposure to domestic violence. (R-296 at 12-13; Tr.
579:22-580:1.)
33

Dr. Brandt diagnosed Ms. Golan with post-traumatic stress disorder as a result of Mr. Saada’s abuse. (R-296 at 10-11.) Dr. Yohananoff did not think Dr. Brandt could conclusively find that Mr.
Saada caused Ms. Golan’s PTSD, since Ms. Golan experienced “significant trauma” as a child. (Tr. 1199:20-1200:15.) Drs. Brandt and Yohananoff also disagreed about whether there was sufficient data to
conclude that Mr. Saada engaged in a persistent pattern of severe
abuse. Dr. Brandt characterized Mr. Saada’s violence as a “very long34

68a
In my view, it was Dr. Yohananoff who provided the
clearest and most objective evaluation of the parties' relationship, and the potential risks to B.A.S. As part of his
evaluation, he not only interviewed Mr. Saada, he consulted collateral sources and made use of psychological
testing. Dr. Brandt relied only on her interviews of Ms.
Golan and her observations of B.A.S., and on Ms. Golan’s
account of her experience.
She was also more of an advocate for Ms. Golan than
an objective evaluator. She appeared to accept everything
Ms. Golan said at face value, without consulting any independent sources. 35 Dr. Yohananoff was far more detached
in his evaluation of Mr. Saada; he did not hesitate to point
out areas of concern nor was he defensive when confronted with Mr. Saada’s testimony, which varied from
the statements he made when Dr. Yohananoff interviewed
him.
2. Italian Legal System
Two experts testified about the Italian legal system’s
approach and capacity to handle cases of domestic violence.
Mr. Saada called Cinzia Calabrese, an Italian civil lawyer specializing in family law who has practiced for 34
standing pattern” of intimidation and control, while Dr. Yohananoff
did not think there was enough information “to firmly establish a persistent pattern of domestic abuse.” (Tr. 440:19-441:6, 1187:13-15,
1196:21-1197:4.)
35
For example, Dr. Brandt believed that Ms. Golan’s behavior that
seemed misleading or manipulative was not actually intentionally
misleading or manipulative, but rather the result of childhood
trauma; she noted that Ms. Golan was aware that her “vague, out-ofsequence, or ... incomplete narrative[s]” can appear manipulative. (R296 at 11-12, 40.)

69a
years in Milan and is president of the AIAF Lombardia
“Milena Pini,” an Italian organization of lawyers specializing in family and minor issues. Ms. Calabrese described
the structural protections in place for domestic violence
victims, which include criminal and civil court orders of
protection, orders of supervised visitation during the pendency of custody proceedings, and appointments of expert
psychologists and psychiatrists to evaluate parent-child
relationships and domestic violence allegations in custody
proceedings. (Tr. 1284:5-25, 1287:14-1289:18, 1291:5-21.)
Ms. Calabrese also discussed the free legal services available at a specialized department for victims of family and
sexual violence in Milan’s public prosecutor’s office. (Tr.
1285:12-18, 1286:8-15; accord Tr. 804:11-805:2.)
Ms. Golan called Elena Biaggioni, a criminal lawyer
who chairs a network of domestic violence organizations
in Italy and is Vice President of the Center for the Elimination of Violence Against Women in Trento, Italy. Ms.
Biaggioni represents victims of domestic violence in criminal proceedings; her civil matters, which account for
about five percent of her work, are limited to juvenile
courts. (See Tr. 676:20-677:9, 775:21-25.) Ms. Biaggioni
spoke in generalities about the flaws in the Italian legal
system and its ability to protect domestic violence victims.
(See, e.g., Tr. 686:25-687:18, 692:22-694:9, 714:4-716:12; R295 ¶¶ 58-59.) She acknowledged, however, that other
countries, including the United States, also had some of
these shortcomings. (See Tr. 720:13-721:9, 774:19-775:20,
807:13-808:4; see also Tr. 761:5-10.) According to Ms.
Biaggioni, Italian courts are dismissive of a victim’s custody petitions, and courts often award custody to abusive
fathers, sometimes at the expense of children’s safety or
without sufficient protections surrounding visitation. (R295 ¶¶ 94-95; see also Tr. 713:15-19.) She noted that the
European Court of Human Rights, the Council of Europe,

70a
and the United Nations have criticized Italian courts and
prosecutors for “systemic failures” to protect victims of
domestic violence. (See, e.g., R-295 at 392-400, 478, 482-83,
613-32; see also R-295 at 52-120; Tr. 711:23-712:7; accord
Tr. 1299:10-14.)
In my view, Dr. Calabrese provided a clearer picture
of the structure of the Italian legal system and the tools
available to domestic violence victims in Italy. Although
Dr. Biaggioni credibly testified about certain shortcomings in the Italian legal system, she spoke in broad terms,
citing anecdotal evidence, but few specifics. She acknowledged that other countries also had flaws in their systems,
including the United States. In any event, both experts
agreed that orders of protection are available to domestic
violence victims, and I credit Dr. Calabrese’s testimony
about the Italian legal system’s ability to handle domestic
violence cases involving children.
3. Domestic Violence Services in Milan
Elena Antonucci, an obstetrician and gynecologist,
testified about a specialized hospital for domestic violence
victims in Milan. The hospital center has psychologists,
social workers, doctors, and lawyers to assist victims of
domestic violence, and provide free legal advice. (Tr.
1018:23-1019:6.) The center also trains health professionals and law enforcement. (Tr. 1019:11-13.) Ms. Golan’s expert, Ms. Biaggioni, acknowledged that these services “go
beyond the traditional and necessary medical assistance,”
and include psychological and social counseling for victims
of domestic abuse. (Tr. 798:16-799:4.)
CONCLUSIONS OF LAW
The Hague Convention is intended to “ ‘protect children internationally from the harmful effects of their

71a
wrongful removal by establishing procedures to ensure
their prompt return to the State of their habitual residence,’ so that the ‘rights of custody and of access under
the law of one Contracting State are effectively respected
in the other Contracting States.’ ” Souratgar v. Lee, 720
F.3d 96, 101-02 (2d Cir. 2013) (quoting Abbott v. Abbott,
560 U.S. 1, 32 n.6 (2010) and Chafin v. Chafin, 133 S. Ct.
1017, 1021 (2013) ). The Convention is particularly focused
on instances of “unilateral removal or retention of children by those close to them, such as parents, guardians,
or family members.” Gitter v. Gitter, 396 F.3d 124, 129 (2d
Cir. 2005) (citation omitted). The Convention’s remedy is
repatriation, which “is designed to preserve the status
quo in the child’s country of habitual residence and deter
parents from crossing international boundaries in search
of a more sympathetic court.” Souratgar, 720 F.3d at 102
(internal quotations omitted). Both the United States and
Italy are contracting states to the Convention. Ermini v.
Vittori, 758 F.3d 153, 156 (2d Cir. 2014).
When a child is wrongfully removed from his or her
country of habitual residence by one parent, the other
parent may commence a proceeding to repatriate the
child to the country of habitual residence. Souratgar, 720
F.3d at 102. “The decision concerning repatriation shall
‘not be taken to be a determination on the merits of any
custody issue.’ ” Id. (quoting Blondin v. Dubois (“Blondin
I”), 189 F.3d 240, 245 (2d Cir. 1999) ); see also Mota v.
Castillo, 692 F.3d 108, 112 (2d Cir. 2012) (“[T]he Convention’s focus is simply upon whether a child should be returned to her country of habitual residence for custody
proceedings.”).
A petitioner bringing a Hague Convention action for
the wrongful retention of a child must show that (1) the
child was “habitually resident” in one contracting state

72a
and was retained in another contracting state; (2) the retention breached the petitioner’s custody rights under the
law of the contracting state of habitual residence; and (3)
the petitioner was exercising those rights at the time of
retention or would have been exercising those rights but
for the retention. Gitter, 396 F.3d at 130-31; Hofmann v.
Sender, 716 F.3d 282, 291 (2d Cir. 2013). The petitioner
must prove these elements by a preponderance of the evidence. Gitter, 396 F.3d at 131 (citing 42 U.S.C. §
11603(e)(1)(A), now codified at 22 U.S.C.§ 9003(e)(1)(A) ).
If the petitioner establishes that the child’s retention
was wrongful, “the child must be returned” unless the respondent can establish one of the four defenses to a Hague
Convention petition. Souratgar, 720 F.3d at 102 (emphasis in original) (quoting Blondin I, 189 F.3d at 245); see
also 22 U.S.C. § 9001(a)(4). Of particular relevance to this
case is the defense of grave risk of harm; the respondent
raising this defense must show by clear and convincing evidence that “there is a grave risk that [the child’s] return
would expose the child to physical or psychological harm
or otherwise place the child in an intolerable situation.”
Convention, art. 13(b); 22 U.S.C. § 9003(e)(2)(A). “Subsidiary facts may be proven by a preponderance of the evidence.” Souratgar, 720 F.3d at 103.
District courts have “considerable discretion” under
the Hague Convention. Id. (quoting Blondin I, 189 F.3d
at 246 n. 4.). Indeed, even if the respondent establishes
one of the “narrow” defenses, “ ‘the district court is not
necessarily bound to allow the child to remain with the abducting parent’ ” Id.
I. HABITUAL RESIDENCE
The parties agree that Ms. Golan removed B.A.S. from
Italy with Mr. Saada’s consent, that she retained him in

73a
the United States without Mr. Saada’s consent, in breach
of Mr. Saada’s “rights of custody,” as defined in Article
5(a) of the Hague Convention, under Italian law, and that
Mr. Saada was exercising those rights when Ms. Golan
kept B.A.S. in the United States. (ECF No. 39 ¶¶ 5, 8.) Mr.
Saada must prove that Italy was the child’s habitual residence at the time Ms. Golan kept him in the United States.
Mr. Saada argues that B.A.S. spent his entire life in
Italy, making Italy his habitual residence at the time Ms.
Golan refused to bring him back to Italy. (ECF No. 59 at
20, 26.) Ms. Golan counters that B.A.S. never had a habitual residence on the theory that his parents did not share
a settled intent that the child would be raised in Italy.
(ECF No. 58 ¶ 8.)
In most Hague Convention cases, “determining the
child’s country of habitual residence is a threshold issue,”
because the laws of the country of habitual residence “determine the custody rights recognized by the Convention.” Guzzo v. Cristofano, 719 F.3d 100, 108 (2d Cir. 2013)
(citing Convention, art. 3). The Convention does not define “habitually resident,” but the Second Circuit instructs courts to make the following inquiries:
First, the court should inquire into the shared intent
of those entitled to fix the child’s residence (usually the
parents) at the latest time that their intent was shared.
In making this determination the court should look, as
always in determining intent, at actions as well as declarations. Normally the shared intent of the parents
should control the habitual residence of the child. Second, the court should inquire whether the evidence unequivocally points to the conclusion that the child has
acclimatized to the new location and thus has acquired
a new habitual residence, notwithstanding any conflict
with the parents' latest shared intent.

74a
Gitter, 396 F.3d at 134. “In the easy case,” the parents
agree on the child’s habitual residence; in most Hague
Convention cases, the parents do not agree on the issue.
Id. at 133. “It then becomes the court’s task to determine
the intentions of the parents as of the last time that their
intentions were shared,” which “is a question of fact in
which the findings of the district court are entitled to deference.” Id. The habitual residence inquiry requires consideration of “the unique circumstances of each case.”
Holder v. Holder, 392 F.3d 1009, 1016 (9th Cir. 2004).
I conclude that Italy was B.A.S.’s habitual residence
at the time Ms. Golan kept him in the United States.
B.A.S. was born in Italy and lived there until the summer
of 2018 when Ms. Golan brought him to the United States.
The parties' only shared residence was in Italy, where
they lived for more than a year before B.A.S. was born,
and it became B.A.S.’s home as well. He went to preschool in Italy, his doctors were there, as was his extended
family. Before Ms. Golan brought him to the United
States, B.A.S. had left Italy only three times, for short
trips. See Holder, 392 F.3d at 1020 (“[I]f a child is born
where the parents have their habitual residence, the child
normally should be regarded as a habitual resident of that
country.”).
Ms. Golan asks me to find that B.A.S. had no habitual
residence; she argues that she and Mr. Saada never
shared a settled intent that Italy would be B.A.S.’s habitual residence, that she conditioned her own residence in
Milan on Mr. Saada’s promise to change, a promise he did
not keep, and that she and B.A.S. lived in Italy only because Mr. Saada exercised coercive control over her.
Ms. Golan cites her longstanding wish to return to the
United States as evidence that she and Mr. Saada had no
shared intent regarding B.A.S.’s habitual residence. The

75a
record shows that she expressed a desire to return to the
United States from the beginning of her marriage, well
before B.A.S. was born. However, in determining the
question of shared intent, “the court should look, as always in determining intent, at actions as well as declarations.” Gitter, 396 F.3d at 134. Ms. Golan’s actions show
that she intended that Italy be B.A.S.’s habitual residence. She established a home with Mr. Saada in Milan,
and continued to live there with him after B.A.S. was born.
Ms. Golan participated in decisions about B.A.S.’s life in
Milan. She and Mr. Saada enrolled him in school, got him
a pediatrician, and secured various forms of Italian identification for him. Cf. Guzzo, 719 F.3d at 104-05 (parents
agreed mother would have custody of child and child
would attend school in New York, mother home-schooled
the child in English, and child was insured through Medicaid and received primary medical treatment in the
United States). While Ms. Golan might have hoped to
move to the United States, her actions established B.A.S.
as a habitual resident of Italy.
The record is equally clear that Mr. Saada never
shared her wish to move to the United States. He took no
action to get himself established in the United States, and
did not agree to any of the steps that Ms. Golan wanted to
take with respect to B.A.S.; he would not agree to get
B.A.S. a United States passport, and did not know that
Ms. Golan had tried to get B.A.S. a Social Security card,
that she had registered his birth with the United States
Consulate, or that she had considered giving birth at Coney Island Hospital.
I do not agree that Mr. Saada’s trip to New York in
January of 2018 was an agreement to change B.A.S.’s habitual residence. The trip—which stemmed from a business dispute with his brother—was merely exploratory;

76a
Mr. Saada looked into possible business and living arrangements in New York, but never committed to moving,
and never looked into schools or doctors for B.A.S. Within
a couple of weeks, he had patched up his relationship with
his brother, and decided to stay in Italy. He never agreed
to move B.A.S. to the United States.
See Guzzo, 719 F.3d at 104. Moreover, Mr. Saada did
not deceive Ms. Golan into establishing Italy as B.A.S.’s
residence. See Gitter, 396 F.3d at 135 (father secretly established residence in Israel while telling his wife that the
move was only temporary).
I am not persuaded that Ms. Golan’s agreement to live
in Italy was solely conditioned on Mr. Saada’s promise to
change his behavior. There is no evidence that Mr. Saada
agreed that Ms. Golan could move with B.A.S. if he did not
meet this condition. See Gitter, 396 F.3d at 135 (parties
agreed to move to Israel on a conditional basis).
I also reject Ms. Golan’s claim that she and B.A.S. remained in Italy only because Mr. Saada exercised coercive
control over her. Of course, “coerced residence is not habitual residence within the meaning of the Hague Convention.” Application of Ponath, 829 F. Supp. 363, 368 (D.
Utah 1993). Mr. Saada was without a doubt physically aggressive toward Ms. Golan; they fought on a daily basis,
fights that often ended in violence, almost always perpetrated by Mr. Saada. The record does not, however, establish that Mr. Saada “so dominated decisions and controlled information” to the point where Ms. Golan did not
know that he planned to keep B.A.S. in Italy. See Tsarbopulos v. Tsarbopulos, 176 F. Supp. 2d 1045, 1055 (E.D.
Wash. 2001) (father hid his intent to move the family permanently to Greece from the United States, and mother
did not share that intent). Nor did Mr. Saada keep Ms.
Golan prisoner in Italy. While she relied on him and his

77a
family for financial support, she had a degree of independence. She spent time with friends in Milan and travelled
internationally by herself and with B.A.S. She sometimes
refused to attend family gatherings, and made use of the
legal system; she called the police about Mr. Saada and
his family, and frequently recorded or otherwise memorialized Mr. Saada’s attacks. Given this record, I do not
agree that Ms. Golan’s will was overborne so that she did
not intend B.A.S. to be habitually resident in Italy.
In short, the parties' last shared intent was to have
B.A.S. live in Italy. Thus, Italy was the child’s habitual
residence at the time Ms. Golan kept him in the United
States. 36
II. GRAVE RISK OF PHYSICAL OR PSYCHOLOGICAL HARM
The next step in the analysis is to determine whether
the respondent established one of the affirmative defenses to wrongful retention. Ms. Golan asserts one affirmative defense—“grave risk of harm.” Specifically, she
argues that returning B.A.S. to Italy would expose him to
physical or psychological harm. I agree that Ms. Golan has
met her burden in this regard.
A. Grave Risk of Harm
Article 13(b) of the Convention provides that “a grave
risk of harm” from repatriating the child to the country of
habitual residence arises “in cases of serious abuse or neglect, or extraordinary emotional dependence, when the
36
I do not address the second Gitter inquiry—whether “the child
has acclimatized to the new location and thus has acquired a new habitual residence”—because the respondent does not assert, and the
evidence does not support, that B.A.S.’s habitual residence changed
to the United States.

78a
court in the country of habitual residence, for whatever
reason, may be incapable or unwilling to give the child adequate protection.” Souratgar, 720 F.3d at 103 (internal
quotations omitted). According to the Second Circuit,
“[t]he potential harm to the child must be severe, and the
level of risk and danger required to trigger this exception
has consistently been held to be very high.” Id. (internal
quotations omitted). The grave risk determination includes both “the magnitude of the potential harm” and
“the probability that the harm will materialize.” Id. The
grave risk exception “is to be interpreted narrowly, lest it
swallow the rule.” Id. The respondent must prove grave
risk of harm “by clear and convincing evidence.” 22 U.S.C.
§ 9003(e)(2)(A).
The Second Circuit instructs courts considering this
question to take care to differentiate between “those situations where repatriation might cause inconvenience or
hardship, eliminate certain educational or economic opportunities, or not comport with the child’s preferences,”
and “situations in which the child faces a real risk of being
hurt, physically or psychologically, as a result of repatriation.” Blondin v. Dubois (“Blondin II”), 238 F.3d 153, 162
(2d Cir. 2001). The former situations are not considered
grave risks of harm; the latter are. Id.
The grave risk of harm need not take the form of direct physical abuse to the child. A history of spousal abuse
“though not directed at the child, can support the grave
risk of harm defense, as could a showing of the child’s exposure to such abuse.” Id. (internal quotations and citations omitted); see also Ermini, 758 F.3d at 164–65
(spousal abuse can establish a grave risk of harm to the
child in certain circumstances). “[A] sustained pattern of
physical abuse and/ or a propensity for violent abuse” that
poses “an intolerably grave risk to the child” can establish

79a
the exception to the preference for repatriation.
Souratgar, 720 F.3d at 104 (internal quotations omitted).
However, the history of domestic violence is relevant
only “if it seriously endangers the child.” Souratgar, 720
F.3d at 103-104. “The Article 13(b) inquiry is not whether
repatriation would place the respondent parent’s safety at
grave risk, but whether so doing would subject the child
to a grave risk of physical or psychological harm.” Id. at
104. “Sporadic or isolated incidents” of physically disciplining the child, “or some limited incidents aimed at persons other than the child, even if witnessed by the child”
are generally not grave risks of harm. Id.
There is no dispute that Mr. Saada was violent— physically, psychologically, emotionally, and verbally—to Ms.
Golan, or that B.A.S. was present for much of it. Mr.
Saada admitted that he slapped Ms. Golan, pulled her
hair, pushed her, and yelled at her. These were not “sporadic or isolated incidents” or “some limited instances,”
but happened repeatedly throughout the course of the
parties' relationship. The pattern is corroborated by contemporaneous texts, in which Mr. Saada described what
he did, and his attempts to explain it away, as well as audio
and video recordings. There are particularly chilling recordings in which Mr. Saada is screaming and swearing at
Ms. Golan, often while B.A.S. was there. And although he
disputed Ms. Golan’s account of how it started, Mr. Saada
also admitted a physical altercation with Ms. Golan while
B.A.S. was in the car and while Mr. Saada was driving at
a high speed. 37
I do not agree that B.A.S. was himself the target of violence.
There were isolated incidents of possible abuse—the overly aggressive “spanking” that Eldar Golan described, Ms. Golan’s claim that
Mr. Saada inadvertently hit B.A.S. when he meant to hit Ms. Golan,
and an episode in which Mr. Saada pushed B.A.S. See Souratgar, 720
37

80a
Nor is there any dispute that a child who is exposed to
domestic violence, even though not the target of abuse,
could face a grave risk of harm. Dr. Tronick explained that
domestic violence disrupts a child’s cognitive and socialemotional development, and affects the structure and organization of the child’s brain. Dr. Brandt described the
“toxic and pathogenic effect” on children and their brains.
Dr. Favaro testified that the presence of domestic violence has an effect on children, and Dr. Yohananoff testified that domestic violence—Mr. Saada’s violence toward
Ms. Golan—poses a risk to B.A.S. Similarly, Italian Social
Services concluded that “the family situation entails a developmental danger” for B.A.S.
The evidence makes it equally clear that Mr. Saada
has to date not demonstrated a capacity to change his behavior. During his testimony, Mr. Saada minimized or
tried to excuse his violent conduct. His own expert said
that Mr. Saada had in all likelihood lied about the frequency and severity of his abuse, that his reliability was
“down the tube,” and that he could not control his anger
or take responsibility for his behavior, which was also evidenced by the fact that he frequently abused Ms. Golan
in front of other people—his family and even hospital employees.
Accordingly, Ms. Golan established by clear and convincing evidence that returning the child to Italy would
subject the child to a grave risk of harm.

F.3d at 104. It is significant that Ms. Golan did not see Mr. Saada as
a threat to B.A.S.; she frequently left B.A.S. with Mr. Saada while she
ran errands or socialized with friends. She also said that she wants
Mr. Saada to have a relationship with B.A.S.

81a
III.

UNDERTAKINGS
MEASURES

OR

AMELIORATIVE

Having found that repatriation poses a grave risk of
harm to B.A.S., I must consider whether there are “any
ameliorative measures (by the parents and by the authorities of the state having jurisdiction over the question of
custody) that can reduce whatever risk might otherwise
be associated with the child’s repatriation.” Blondin I, 189
F.3d at 248. In other words, I consider whether there are
any measures that could protect B.A.S. “while still honoring the important treaty commitment to allow custodial
determinations to be made—if at all possible—by the
court of the child’s home country.” Id.
Thus, I consider “the range of remedies that might allow both” the child’s return and his protection from harm
pending a custody determination in the child’s country of
habitual residence. Id. at 249 (emphasis in original). “In
cases of serious abuse, before a court may deny repatriation on the ground that a grave risk of harm exists under
Article 13(b), it must examine the full range of options
that might make possible the safe return of a child to the
home country.”Blondin II, 238 F.3d at 163, n.11. To that
end, I directed the parties to propose ameliorative
measures that could achieve this goal.
Ms. Golan takes the position that there are no steps
that would protect B.A.S., and no way to ensure that Mr.
Saada would comply with them. 38 (ECF No. 58 at 96-101.)
I disagree. First, Ms. Golan and Mr. Saada will no longer

38
Ms. Golan supplied a list of undertakings with the understanding
that she was not forfeiting her claim that no undertakings could ensure B.A.S.’s safety.

82a
be living together, and eliminating the element of proximity will reduce the occasions for violence. 39 Second, Mr.
Saada has agreed to take certain steps before B.A.S.
comes back to Italy. In my judgment, those steps would
ameliorate the grave risk to B.A.S. posed by Mr. Saada’s
abusive behavior to Ms. Golan.
Mr. Saada testified that he would stay away from Ms.
Golan if she were to return to Italy, and give her money,
before B.A.S. returns to Italy, for her own apartment and
for expenses for her and B.A.S. until the Italian courts address the custody issues. (Tr. 909:11-910:3.) In his posttrial submission, Mr. Saada confirmed that he would
agree to the following undertakings: (1) give Ms. Golan
$30,000, before B.A.S. returns, for housing without restrictions on location in Italy, financial support, and legal
fees until the Italian courts address those issues; (2) mutual agreement to stay away from Ms. Golan until the Italian courts address this issue;40 (3) pursue dismissal of
criminal charges against Ms. Golan relating to her abduc-

I reject Ms. Golan’s claim that Mr. Saada and his family have
some power over Italian law enforcement officials. Ms. Golan cites the
police response to her call in April of 2017, but in my view, the police
response was appropriate. It led to the Social Services investigation,
and subsequent series of sessions that Social Services conducted with
the parties. Nothing in the record suggests that Mr. Saada ignored or
violated any orders or directives. The involvement of family friend
and attorney Paulo Siniscalchi did not affect the way the police handled the investigation. The police did not arrest Mr. Saada, but Ms.
Golan admitted that she did not want him arrested; she wanted the
police to warn him not to hit her again.
39

40
Mr. Saada also acknowledged that he could “only exercise visitation with the child upon [Ms. Golan’s] consent” “[u]ntil there is an order of the Italian courts stating otherwise, ... although [he] ha[s] equal
rights of custody.” (ECF No. 59 at 37 n.23.)

83a
tion of B.A.S.; (4) begin cognitive behavioral therapy in Italy; and (5) waive any and all rights to legal fees or expenses under the Hague Convention and ICARA for the
prosecution of this action. (ECF No. 59 at 39.)
Ms. Golan proposed similar undertakings: that Mr.
Saada drop and promise not to pursue any criminal or civil
actions against Ms. Golan in Italy based on the abduction
of B.A.S.; that he pay for relocation expenses, child support, housing, transportation, and legal expenses; that
there be orders of protection; that he give Ms. Golan full
temporary custody of B.A.S. pending the custody determination in Italy; therapeutic services for both Mr. Saada
and Ms. Golan; agreements about the use of evidence in
this case for the Italian custody proceeding; and a sworn
statement setting forth the process for Ms. Golan to obtain legal status and working papers in Italy, including the
measures Mr. Saada will take to ensure that Ms. Golan
gets legal status and working papers in a timely manner.
The proposed undertakings sufficiently ameliorate the
grave risk of harm to B.A.S. upon his repatriation to Italy.
By giving Ms. Golan sufficient funds for housing and expenses for the duration of the custody proceedings and
agreeing to mutual orders of protection, Mr. Saada has
reduced the risk that B.A.S. would be subjected to harm
upon his return to Italy. Ms. Golan can return to Italy with
B.A.S. and have enough money for an apartment that she
chooses, without Mr. Saada or his family knowing of its
location, during the course of the Italian custody proceedings.
***
As one court has observed, “[t]hese cases are always
heart-wrenching, and there is inevitably one party who is

84a
crushed by the outcome. [Courts] cannot alleviate the parties' emotional trauma, but at a minimum [courts] can
hope to provide them and their child[ ] with a prompt resolution so that they can escape legal limbo.” Holder, 392
F.3d at 1023. This case is no different.
CONCLUSION
The Court concludes that B.A.S. was a habitual resident of Italy when Ms. Golan kept him in the United
States, and that B.A.S. would be subject to grave risk of
harm upon repatriation to Italy. Mr. Saada has agreed to
the following undertakings: (1) he will give Ms. Golan
$30,000 before B.A.S. is returned to Italy for housing accommodations without restriction on location in Italy, financial support, and legal fees; (2) he will stay away from
Ms. Golan until the Italian courts address this issue; (3)
he will pursue dismissal of criminal charges against Ms.
Golan relating to her abduction of B.A.S.; (4) he will begin
cognitive behavioral therapy in Italy; and (5) he waives
any and all rights to legal fees or expenses under the
Hague Convention and ICARA for the prosecution of this
action. In addition, Mr. Saada is to provide the full record
of these proceedings, including trial transcripts, court filings, exhibits, undertakings, expert reports, and decisions
of this Court to the Italian court presiding over the custody proceeding. Mr. Saada is to provide a sworn statement with the measures he will take to assist Ms. Golan in
obtaining legal status and working papers in Italy. Mr.
Saada must also drop any current civil actions against Ms.
Golan in Italy based on the abduction of B.A.S., and must
not pursue any future criminal or civil actions against her
in Italy based on the abduction. Based on these undertakings and conditions, which the Court concludes sufficiently ameliorate the risk of harm to B.A.S. upon repatriation, the petition is granted.

85a
The parties are directed to appear for a conference on
Friday, March 29, 2019, at 10:30 a.m. in Courtroom 4G
North to establish the timing and circumstances for
B.A.S.’s return to Italy.
SO ORDERED.

86a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

No. 20-1544

Isacco Jacky Saada,
Petitioner-Appellee,
v.
Narkis Aliza Golan,
Respondent-Appellant.

Filed: January 14, 2021
ORDER
Appellant, Narkis Aliza Golan, filed a petition for
panel rehearing, or, in the alternative, for rehearing en
banc. The panel that determined the appeal has considered the request for panel rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

